<html>
<title> - BUILDING FOR THE FUTURE: EXAMINING CHALLENGES FACING THE DEPARTMENT OF HOMELAND SECURITY'S CONSOLIDATED HEADQUARTERS PROJECT</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


BUILDING FOR THE FUTURE: EXAMINING CHALLENGES FACING THE DEPARTMENT OF 
         HOMELAND SECURITY'S CONSOLIDATED HEADQUARTERS PROJECT

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                             OVERSIGHT AND
                         MANAGEMENT EFFICIENCY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 12, 2018

                               __________

                           Serial No. 115-57

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                               
                   U.S. GOVERNMENT PUBLISHING OFFICE                    
30-895 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9dfaedf2ddfee8eee9f5f8f1edb3fef2f0b3">[email&#160;protected]</a> 
                              
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Lou Barletta, Pennsylvania           Cedric L. Richmond, Louisiana
Scott Perry, Pennsylvania            William R. Keating, Massachusetts
John Katko, New York                 Donald M. Payne, Jr., New Jersey
Will Hurd, Texas                     Filemon Vela, Texas
Martha McSally, Arizona              Bonnie Watson Coleman, New Jersey
John Ratcliffe, Texas                Kathleen M. Rice, New York
Daniel M. Donovan, Jr., New York     J. Luis Correa, California
Mike Gallagher, Wisconsin            Val Butler Demings, Florida
Clay Higgins, Louisiana              Nanette Diaz Barragan, California
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
Ron Estes, Kansas
Don Bacon, Nebraska
                   Brendan P. Shields, Staff Director
                   Steven S. Giaier, General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 ------                                

          SUBCOMMITTEE ON OVERSIGHT AND MANAGEMENT EFFICIENCY

                  Scott Perry, Pennsylvania, Chairman
John Ratcliffe, Texas                J. Luis Correa, California
Clay Higgins, Louisiana              Kathleen M. Rice, New York
Thomas A. Garrett, Jr., Virginia     Nanette Diaz Barragan, California
Ron Estes, Kansas                    Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Diana Bergwin, Subcommittee Staff Director
      Erica D. Woods, Interim Subcommittee Minority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Scott Perry, a Representative in Congress From the 
  State of Pennsylvania, and Chairman, Subcommittee on Oversight 
  and Management Efficiency:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable J. Luis Correa, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Oversight and Management Efficiency:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     6

                               Witnesses

Mr. Thomas D. Chaleki, Chief Readiness Support Officer, 
  Directorate for Management, U.S. Department of Homeland 
  Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Mr. Michael Gelber, Deputy Commissioner, Public Buildings 
  Service, General Services Administration:
  Oral Statement.................................................    12
  Prepared Statement.............................................    13
Mr. Christopher P. Currie, Director, Emergency Management, 
  National Preparedness and Critical Infrastructure Protections, 
  Homeland Security and Justice Team, U.S. Government 
  Accountability Office:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16

                                Appendix

Questions From Chairman Scott Perry for Thomas Chaleki...........    41
Questions From Ranking Member Luis Correa for Thomas Chaleki.....    44
Questions From Ranking Member Bennie G. Thompson for Thomas 
  Chaleki........................................................    46
Questions From Chairman Scott Perry for Michael Gelber...........    47
Questions From Ranking Member Luis Correa for Michael Gelber.....    47
Questions From Ranking Member Bennie G. Thompson for Michael 
  Gelber.........................................................    49
Questions From Ranking Member Luis Correa for Christopher P. 
  Currie.........................................................    49

 
BUILDING FOR THE FUTURE: EXAMINING CHALLENGES FACING THE DEPARTMENT OF 
         HOMELAND SECURITY'S CONSOLIDATED HEADQUARTERS PROJECT

                              ----------                              


                        Thursday, April 12, 2018

             U.S. House of Representatives,
                    Committee on Homeland Security,
                             Subcommittee on Oversight and 
                                     Management Efficiency,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:02 a.m., in 
room HVC-210, Capitol Visitor Center, Hon. Scott Perry 
(Chairman of the subcommittee) presiding.
    Present: Representatives Perry, Higgins, Garrett, Estes, 
Correa, and Rice.
    Mr. Perry. Good morning. The Committee on Homeland Security 
Subcommittee on Oversight and Management Efficiency will come 
to order. The purpose of this hearing is to examine the 
Department of Homeland Security's headquarters consolidation 
project.
    The Chair now recognizes himself for an opening statement.
    Last month, DHS celebrated its 15-year anniversary, an 
important milestone for the Department and a reminder of the 
progress that has been made in securing the homeland since 9/
11. Despite significant accomplishments, organizational and 
management challenges continue to hinder DHS's ability to 
operate as a fully matured agency.
    Perhaps no other initiative has come to symbolize this more 
than DHS's on-going headquarters consolidation project at the 
historic St. Elizabeths campus in southeast Washington, DC.
    In 2006, then-DHS Secretary Michael Chertoff outlined a 
vision to unify core DHS headquarters and component facilities 
spread across the National capital region into a consolidated 
location in order to improve mission effectiveness, increase 
organizational efficiency, and save taxpayer dollars.
    The Department in coordination with the U.S. General 
Services Administration, or GSA, developed plans to utilize a 
combination of new construction and the rehabilitation of 
existing historic structures to build a Department-wide 
headquarters at St. Elizabeths by 2016 at an estimated cost of 
$3.26 billion.
    Unfortunately, today 2 years past the original scheduled 
completion date, this vision is still very far from reality. 
From the onset or the outset, the project at St. Elizabeths has 
been plagued by a multitude of setbacks that have led to 
significant cost overruns and scheduled delays.
    For example, rehabilitation of the Center Building, which 
will house the executive leadership of the Department, has 
encountered numerous delays due to the extensive deterioration 
of the building's historic structure.
    Additionally, DHS and GSA have consistently failed to 
proactively respond to shifting fiscal and construction 
realities throughout the project's duration, suggesting 
persistent program management shortcomings.
    In 2013, concerns over progress at St. Elizabeths led this 
committee to request that the U.S. Government Accountability 
Office conduct a performance audit of the project. GAO's audit 
revealed that DHS and GSA plans did not conform with leading 
capital decision-making practices, failed to conform with 
leading costs and schedule estimating practices, and had not 
been updated to reflect economic challenges and innovative 
workplace efficiencies.
    Following GAO's audit, committee legislation was signed 
into law codifying several GAO recommendations which sought to 
address some of the foundational management issues crippling 
the consolidated headquarters project and to get St. Elizabeths 
back on track.
    This law, Public Law 114-150, also required DHS to submit 
to Congress updated information relating to the St. Elizabeths 
project by September 2016. However, over a year-and-a-half 
later, DHS and GSA have failed to comply with the requirements 
prescribed by the law and have not fully implemented other 
related recommendations made by GAO.
    DHS and GSA are currently operating under the DHS 
headquarters consolidation enhanced plan implemented in 2015, 
which scaled back the original plans for St. Elizabeths. The 
enhanced plan reduced the expected cost of the project from 
$4.5 billion to $3.7 billion and set a new completion date of 
2021. Not surprisingly, the latest reports already have this 
plan behind schedule and at risk of going over budget.
    As things currently stand, over a decade of consolidation 
was originally conceived, only the U.S. Coast Guard has moved 
to St. Elizabeths and lingering occupancy issues with the Coast 
Guard's Munro Building have marred even this phase of the 
project.
    The enhanced plan's proposal for a reconfiguration of the 
Munro Building to increase occupancy has been met with concern 
from the Coast Guard and still has not yet been executed, 
despite receiving full funding in fiscal year 2016.
    With no end in sight, I am concerned that despite the 
President's fiscal year 2019 combined DHS and GSA budget 
request of over $400 million for St. Elizabeths, headquarters 
consolidation is no longer a priority for the Department. It 
sure seems that way.
    DHS has real challenges to overcome to be sure, from 
securing the border to guarding our Nation's critical 
infrastructure from cyber attacks. Building office space should 
not be one of those challenges. After nearly a decade of 
failure, the American people simply deserve better. It is long 
past time for DHS and GSA to take responsibility at St. 
Elizabeths.
    If headquarters consolidation remains a priority, continued 
mismanagement moving forward is unacceptable. The mission of 
DHS is too important, and it is imperative for the future 
success of the agency that the office space housing the 
Department's headquarters is able to meet mission requirements.
    I want to thank our panel for appearing before this 
subcommittee this morning on this very important issue. I look 
forward to receiving an update on construction, cost, and 
occupancy at St. Elizabeths and learning why DHS and GSA have 
failed to fully implement the requirements of Public Law 114-
150.
    [The statement of Chairman Perry follows:]
                   Statement of Chairman Scott Perry
                             April 12, 2018
    Last month, DHS celebrated its 15-year anniversary, an important 
milestone for the Department and a reminder of the progress that has 
been made in securing the homeland since 9/11. Despite significant 
accomplishments, however, organizational and management challenges 
continue to hinder DHS's ability to operate as a fully matured agency. 
Perhaps no other initiative has come to symbolize this more than DHS's 
on-going headquarters consolidation project at the historic St. 
Elizabeths Campus in Southeast Washington, DC.
    In 2006, then-DHS Secretary Michael Chertoff outlined a vision to 
unify core DHS headquarters and component facilities spread across the 
National Capital Region into a consolidated location in order to 
improve mission effectiveness, increase organizational efficiency, and 
save taxpayer dollars. The Department, in coordination with the U.S. 
General Services Administration (GSA), developed plans to utilize a 
combination of new construction and the rehabilitation of existing 
historic structures to build a Department-wide headquarters at St. 
Elizabeths by 2016 at an estimated cost of $3.26 billion. 
Unfortunately, today--2 years past the original scheduled completion 
date--this vision is still far from reality.
    From the outset, the project at St. Elizabeths has been plagued by 
a multitude of setbacks that have led to significant cost overruns and 
schedule delays. For example, rehabilitation of the Center Building, 
which will house the executive leadership of the Department, has 
encountered numerous delays due to the extensive deterioration of the 
building's historic structure. Additionally, DHS and GSA have 
consistently failed to proactively respond to shifting fiscal and 
construction realities throughout the project's duration, suggesting 
persistent program management shortcomings.
    In 2013, concerns over progress at St. Elizabeths led this 
committee to request that the U.S. Government Accountability Office 
(GAO) conduct a performance audit of the project. GAO's audit revealed 
that DHS and GSA plans did not conform with leading capital decision-
making practices, failed to conform with leading cost and schedule 
estimating practices, and had not been updated to reflect economic 
challenges and innovative workplace efficiencies.
    Following GAO's audit, committee legislation was signed into law 
codifying several GAO recommendations which sought to address some of 
the foundational management issues crippling the consolidated 
headquarters project and to get St. Elizabeths back on track. This law, 
Public Law 114-150, also required DHS to submit to Congress updated 
information relating to the St. Elizabeths project by September 2016. 
However, over a year and half later, DHS and GSA have failed to comply 
with the requirements prescribed by the law and have not fully 
implemented other related recommendations made by GAO.
    DHS and GSA are currently operating under the DHS Headquarters 
Consolidation Enhanced Plan, implemented in 2015, which scaled back the 
original plans for St. Elizabeths. The Enhanced Plan reduced the 
expected cost of the project from $4.5 billion to $3.7 billion and set 
a new completion date of 2021. Not surprisingly, the latest reports 
already have this plan behind schedule and at risk of going over 
budget.
    As things currently stand, over a decade after consolidation was 
originally conceived, only the U.S. Coast Guard has moved to St. 
Elizabeths and lingering occupancy issues with the Coast Guard's Munro 
Building have marred even this phase of the project. The Enhanced 
Plan's proposal for a reconfiguration of the Munro Building to increase 
occupancy has been met with concern from the Coast Guard and still has 
not been executed despite receiving full funding in fiscal year 2016. 
With no end in sight, I am concerned that despite the President's 
fiscal year 2019 combined DHS and GSA budget request of over $400 
million for St. Elizabeths, headquarters consolidation is no longer a 
priority for the Department.
    DHS has real challenges to overcome, from securing the border to 
guarding our Nation's critical infrastructure from cyber attacks. 
Building office space should not be one of those challenges. After 
nearly a decade of failure, the American people deserve better. It is 
past time for DHS and GSA to take responsibility at St. Elizabeths. If 
headquarters consolidation remains a priority, continued mismanagement 
moving forward is unacceptable. The mission of DHS is too important and 
it is imperative for the future success of the agency that the office 
space housing the Department's headquarters is able to meet mission 
requirements.
    I want to thank our panel for appearing before the subcommittee 
this morning on this very important issue. I look forward to receiving 
an update on construction, cost, and occupancy at St. Elizabeths, and 
learning why DHS and GSA have failed to fully implement the 
requirements of Public Law 114-150.

    Mr. Perry. The Chair now recognizes the Ranking Minority 
Member of the subcommittee, the gentleman from California, Mr. 
Correa, for his statement.
    Mr. Correa. Good morning and thank you, Chairman Perry, for 
holding this hearing on the Department of Homeland Security's 
headquarters consolidation project.
    I thank the witnesses for being here today.
    I am disappointed not to have under secretary for 
management with us here today. The under secretary oversees the 
Department's budget and is responsible for management and 
administration of the Department. It would have been useful to 
hear her version and her vision of plans for this St. 
Elizabeths project.
    At previous hearings on this issue, the under secretary's 
testimony shed significant light on the Department's plans and 
priorities for the project and how Congress could best support 
this project.
    Much has been said about DHS's inability to effectively 
consolidate these offices and components at the St. Elizabeths 
campus. However, many do not recognize that while Congress 
authorized the project, it did not fully fund it.
    But let us start at the beginning. What are the reasons for 
the consolidation today? What were the reasons for 
consolidation originally? Our National security. We moved in 
this direction because we all agreed that it was most efficient 
to protect our country, to protect our citizens if we 
consolidated all functions in one centralized location.
    It is my understanding that even General Kelly, when he was 
Secretary of Homeland, complained that moving, commuting from 
one building to the other to try to address management issues 
was very inefficient. I have to ask all of you here today is 
our objective still to protect the homeland? Is our top 
priority still to protect American citizens and taxpayers?
    If that is our objective, is consolidation of these 
buildings, consolidations of these departments under one 
centralized location, still the most effective way of 
protecting our citizens? If it is, what is the problem?
    It is my understanding this project is essentially 
scheduled to cost about $4 billion. It is also my understanding 
that we have already invested about $2 billion of taxpayer 
dollars toward this project. It is also my understanding that 
we spend about $1.6 billion annually on leases in the 
Washington, DC area for various buildings to perform these 
projects.
    It is also about $400 million a year that we spend for 
upkeep and maintenance. So if we take $1.6 billion plus $400 
million, that is about $2 billion a year that we spend just on 
leasing buildings throughout the District of Columbia to do 
this function.
    Now, if I pencil it out, $2 billion a year, takes us 
another $2 billion, $3 billion to complete this project, what 
is the payback? In about 2 or 3 years we break even and we get 
more efficient operation of Homeland Security for the benefit, 
for the safety of our taxpayers.
    I want to hear from the witnesses here today, first of all 
what went wrong? No. 2, how do we get back on track? Of course, 
No. 3, most importantly, is consolidation of all these 
operations in one place, St. Elizabeths, still the most 
effective way of protecting American citizens, of protecting 
taxpayers from those that would do us harm?
    Mr. Chairman, I yield.
    [The statement of Ranking Member Correa follows:]
               Statement of Ranking Member J. Luis Correa
                             April 12, 2018
    I am disappointed not to have the under secretary for management 
before us today. The under secretary for management oversees the 
Department's budget and is responsible for the management and 
administration of the Department. It would have been useful to hear her 
vision and plans for the St. Elizabeths project.
    At previous hearings on this matter, the under secretary's 
testimony has shed significant light on the Department's plans and 
priorities for the project and how Congress could best support 
progress.
    Much has been said about DHS's inability to effectively consolidate 
its offices and components at the St. Elizabeths campus. However, many 
do not recognize that while Congress authorized the project, it failed 
to fully fund it.
    Let's start from the beginning of this consolidation project. Are 
the reasons for consolidation still valid today? Has anything changed 
from the initial plans? Focused National security will stop the bad 
guys and protect citizens and our communities.
    This project will house major components of the Department to 
improve its effectiveness and efficiencies such as communication and 
information sharing and to be more effective in protecting our Nation.
    In 2013, we were paying $1.6 billion on dozens of leases throughout 
the Washington DC, Virginia, and Maryland areas with $400 million on 
maintenance and upkeep costs.
    These numbers are from 2013, and we don't know what those numbers 
are today?
    While this project was supposed to be completed by 2016, at this 
subcommittee's last hearing on the DHS headquarters consolidation held 
in September 2014, we learned that from fiscal years 2006 through 2014, 
Congress provided $1.6 billion less than requested. That gap has 
persisted.
    To date, of the $4.8 billion requested by DHS and General Services 
Administration (GSA) for the project, only $2.3 billion has been 
appropriated.
    DHS and the GSA were able to complete the new Coast Guard 
Headquarters at St. Elizabeths on time in 2013 because they received 
adequate funding at the beginning of the consolidation project.
    Funding has decreased since that time, impeding DHS and GSA's 
efforts to make significant progress. The Government Accountability 
Office acknowledged in a September 2014 report that a lack of funding 
was responsible for delays in building the Secretary's Office as well 
as headquarters for four components: The Federal Emergency Management 
Agency, Transportation Security Agency, Customs and Border Protection, 
and Immigration and Customs Enforcement.
    At its inception, the DHS Headquarters Consolidation Project was 
justified on the basis that it was going to centralize leadership, 
enhance operations, save taxpayer money, and improve morale.
    The more time that goes by without Congress providing adequate 
funding for the project, the less likely those benefits will be 
achieved. This is especially true of achieving taxpayer cost savings.
    DHS components and offices that should have already moved into 
owned space at St. Elizabeths are extending expensive leases in the 
D.C. area.
    Long-term leases result in unnecessary costs to taxpayers and mean 
less money spent on conducting DHS's mission.
    Enough time has elapsed that the Transportation Security 
Administration--a DHS component that was originally scheduled to move 
to St. Elizabeths--is instead building a new headquarters in 
Springfield, Virginia.
    Given the inception of the Department of Homeland Security in 2003 
and the support of the Bush administration, if I may, I would suggest 
renaming St. Elizabeths Campus to the George W. Bush Homeland Security 
Center. Maybe that will get Congress to fund it.
    Scaling back the project as originally envisioned brings into 
question whether the intended benefits of consolidation, such as 
enhanced operations, will be achieved.
    Given the changes being made to the original master plan, DHS and 
GSA owe taxpayers a clear picture of the path forward for future 
consolidation.
    Today, I look forward to discussing with the witnesses how we can 
continue to make progress at the St. Elizabeths campus to realize the 
benefits of the DHS Headquarters Consolidation Project. With $2 billion 
already spent on the project, DHS cannot afford to fail.

    Mr. Perry. The Chair thanks the Ranking Member.
    Other Members of the subcommittee are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
         Statement of Ranking Member Bennie G. Thompson (D-MS)
                             April 12, 2018
    It has been nearly four years since the committee held a hearing on 
the Department of Homeland Security (DHS) Headquarters Consolidation 
Project at St. Elizabeths in Southeast, Washington, DC.
    While we have continued to follow the project, we are overdue for a 
detailed update on the progress that has been made since our last 
hearing.
    With that being said, it is unfortunate that the under secretary 
for management is not with us today to discuss this pressing issue.
    The under secretary, being third in command of the Department, and 
responsible for overseeing its budget and management programs, 
including procurement, should be on this panel today. I hope we can 
have her before the subcommittee in the future to discuss this and many 
other important issues.
    Turning to today's business, stood up in 2003, following the 
September 11 attacks and the enactment of the Homeland Security Act of 
2002, the Department of Homeland Security unified several legacy 
agencies from 22 various Federal agencies.
    The previously existing agencies and DHS's headquarters have been 
separated since the Department's inception--with the Department 
operating at over 50 different locations throughout the Washington, DC 
area.
    I have repeatedly expressed concern about how this separation of 
Department personnel has adversely affected cohesive communication, 
coordination, and cooperation across all component agencies as the 
Department seeks to fulfill its critical mission.
    We learned from Hurricane Katrina that Federal Government response 
organizations should be housed together and strengthened in order to 
better mitigate disasters.
    In 2006, a post-Katrina White House after action report called for 
a new National Operations Center within DHS to integrate Department-
wide operations and improve coordination of response efforts to 
catastrophes and other homeland security events.
    However, without a consolidated DHS headquarters to house a new and 
improved center, its ability to provide robust command-and-control 
functions and execute its mission is limited.
    Moreover, the delay in consolidation has also hindered DHS's 
ability to sustain a ``One DHS'' culture and improve Department morale.
    There are several factors behind the rising costs and drastic 
delays facing the completion of the St. Elizabeths project, and I'm 
looking forward to an opportunity today to explore those issues 
further.
    Yes, schedules have slipped and cost estimates have not always been 
accurate, but most importantly--Congressional Republicans have failed 
to deliver consistent funding throughout the entirety of the project.
    Appropriated funding has been far below what was requested by 
administrations of both parties, and the funding gap has widened over 
the years--further contributing to project delays and cost inflations.
    The Majority claims a desire to reduce waste and save taxpayer 
dollars, yet their actions show otherwise.
    Currently, the Department employees are housed at over 50 
buildings, costing the Department over $1.6 billion annually, as of 
2014.
    In 2014, GSA estimated that over the next 30 years, the St. 
Elizabeths project would save the Government nearly $700 million 
compared to the cost of continued leasing.
    Four years later--still kicking the can down the road--I am unsure 
when or if those overhead savings will be realized.
    It is time my colleagues across the aisle put their money where 
their mouth is and prioritize the completion of the DHS consolidation 
project.
    The operational, cultural, and fiscal implications of the 
consolidation demand it. As such, I look forward to hearing from DHS, 
GSA, and GAO about how Congress and the administration ought to get it 
done.

    Mr. Perry. We are pleased to have a distinguished panel of 
witnesses before us today. The witnesses' entire written 
statements will appear in the record. The Chair will introduce 
the witnesses first and then recognize each of the witnesses 
for their testimony.
    Mr. Thomas Chaleki is the chief readiness support officer 
for the Department of Homeland Security. Mr. Chaleki has served 
in a variety of readiness and mission support roles in DHS 
headquarters and the Coast Guard. Mr. Chaleki retired as a 
colonel in the Air Force Reserve, having served as a civil 
engineer. Mr. Chaleki, we thank you for your service.
    Mr. Michael Gelber is the deputy commissioner of the Public 
Building Service for GSA. Mr. Gelber has overseen major Federal 
acquisitions in the United States and abroad since joining GSA 
in 1988. Thank you, sir.
    Mr. Christopher Currie is the director of emergency 
management, National preparedness, and critical infrastructure 
protection on the GAO's Homeland Security and Justice team. We 
thank you for your service and your attendance here.
    Thank you all for being here today.
    The Chair now recognizes Mr. Chaleki for an opening 
statement.

    STATEMENT OF THOMAS D. CHALEKI, CHIEF READINESS SUPPORT 
    OFFICER, DIRECTORATE FOR MANAGEMENT, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Chaleki. Chairman Perry, Ranking Member Correa, 
distinguished Members of the subcommittee, thank you for the 
opportunity to appear before you today to discuss the 
Department of Homeland Security's consolidated headquarters at 
St. Elizabeths.
    I am Tom Chaleki, chief readiness support officer for DHS. 
My responsibilities include the oversight and management of the 
Department's facilities and real property and the consolidation 
of DHS facilities in the National Capital Region.
    I am pleased to appear with my colleagues from the General 
Services Administration and the Government Accountability 
Office to update the subcommittee on the progress we have made 
and our future efforts for GSA's development at the St. 
Elizabeths West Campus as the DHS consolidated headquarters.
    My experience to date, as outlined in my written statement, 
give me a deeper appreciation for the challenges of this 
complex development in an uncertain funding environment. I can 
testify to the benefits that completion will bring to the 
Department operationally and fiscally with your continued 
support.
    While the threats, challenges, and priorities of the 
Department have evolved over time, the need for a consolidated 
headquarters is just as important today as it was when we 
started this effort in 2006.
    Five secretaries, including Secretary Nielsen, have 
determined that the existing DHS headquarters at the Nebraska 
Avenue Complex is insufficient to meet the Department's needs. 
Additionally, DHS component headquarter offices are presently 
scattered across 46 different locations within the NCR.
    Aside from the clear operational need, a consolidated 
headquarters offers three key benefits: Improved unity of 
effort through integrated decision making and collaboration 
across the Department, more efficient use of shared resources, 
and greater cost savings through consolidation into long-term 
Government-owned facilities.
    For the past 10 years, DHS has worked in close partnership 
with GSA to achieve our shared vision of building a Federally-
owned consolidated DHS headquarters on the historical St. 
Elizabeths campus. The first significant steps was the 
completion of the Munro Building in 2013, now the home of Coast 
Guard headquarters, along with numerous support facilities.
    Furthermore, the National operations center construction is 
progressing within the DHS operations center's facility. The 
continued buildout and transition of component operation 
centers to St. Elizabeths is a foundational element of the 
headquarters consolidation effort.
    Among other efforts, we are approaching the completion of 
the iconic Center building, which will house the DHS Secretary 
and nearly 800 additional staff by next April.
    Despite all this activity and clear success, we also 
recognize that a project of this magnitude and complexity is 
not without its challenges. DHS is a large, diverse agency with 
a long list of critical requirements that must be met if we are 
to achieve continuous mission success and bring about true 
unity of effort.
    As a tenant agency, DHS is responsible for providing 
programmatic requirements to GSA, budgeting for and funding 
certain tenant specifications, reviewing GSA-managed design and 
construction activities, coordinating with GSA and all 
stakeholders on historic preservation consultations and 
regulatory reviews of the project, and providing oversight on 
GSA's use of DHS's funding in the execution of their 
responsibilities as the developer.
    The Department fully cooperates with GSA, but does not 
exercise acquisition oversight or procurement decisions related 
to GSA's property development activities. Clearly understanding 
each of our respective roles in this process is critical to 
providing effective program management and oversight.
    To that end, GAO's 2014 report on DHS headquarters 
consolidation provided three recommendations with respect to 
the St. Elizabeths program. The Department concurred with all 
three and has taken action to address each within our 
responsibilities, which I have outlined in my written 
statement.
    In addition to the actions we have taken to meet 
recommendations in the GAO report, Public Law 114-150, 
Department of Homeland Security Headquarters Consolidation 
Accountability Act of 2015, requires the Secretary of Homeland 
Security, in coordination with the GSA administrator, to submit 
to the appropriate committees of Congress information on the 
implementation of the enhanced plan for the Department's 
headquarters consolidation project within the NCR.
    Given the lack of fiscal year 2017 and fiscal year 2018 
funding, the plan is misaligned, outdated, and no longer 
accurate. The GSA is now revisiting the enhanced plan.
    With the fiscal year 2019 President's budget request, DHS 
Secretary Nielsen and GSA Administrator Murphy have committed 
the Department and GSA to continue the headquarters 
consolidation project by requesting funds for a new building 
for FEMA headquarters.
    In addition, GSA and DHS are working aggressively to 
address priority lease expirations, address certain 
programmatic challenges, and validate the remaining occupancy 
requirements. We believe the remaining development needs to 
focus on cost-effective construction that maximizes space 
utilization.
    DHS and GSA will update the consolidation plan, provide the 
Congressional report and brief our Congressional committees and 
GAO on our future plans, including any assistance that may be 
necessary to successfully deliver the campus in the most 
mission-effective and cost-efficient manner.
    In closing, I would like to assure this subcommittee that 
DHS is working hard to remain a good steward of taxpayers' 
money by managing our real estate portfolio, both Government-
owned and leased, in a cost-effective manner that will 
facilitate securing the homeland and save the American taxpayer 
money.
    Thank you again for the opportunity to testify today on 
this important matter. I would be pleased to answer any 
questions the committee may have.
    [The prepared statement of Mr. Chaleki follows:]
                Prepared Statement of Thomas D. Chaleki
                             April 12, 2018
                              introduction
    Chairman Perry, Ranking Member Correa, and distinguished Members of 
the subcommittee, thank you for the opportunity to appear before you 
today to discuss the Department of Homeland Security's (DHS) 
Consolidated Headquarters at St. Elizabeths. I am Tom Chaleki, chief 
readiness support officer for DHS. My responsibilities include the 
oversight and management of the Department's facilities and real 
property, and the consolidation of DHS facilities in the National 
Capital Region (NCR).
    I am pleased to appear with my colleagues from the General Services 
Administration (GSA) and the Government Accountability Office (GAO) to 
update the subcommittee on the progress since the 2014 hearing of GSA's 
development of the St. Elizabeths West Campus as the DHS Consolidated 
Headquarters. I have experience with the Headquarters Consolidation 
Program, as until very recently I was the deputy chief readiness 
support officer with oversight responsibilities for the DHS property 
portfolio. I also worked for several years in facility planning for the 
U.S. Coast Guard and as an Air Force Reserve civil engineer. As a 
result of my background and experiences, I have a great appreciation 
for the challenges of this complex development in an uncertain funding 
environment, and can testify to the benefits that completion will bring 
to the Department operationally and fiscally with your continued 
support.
    Beginning with the submission of the DHS National Capital Region 
Housing Master Plan submitted to Congress in 2006, in cooperation with 
the developer GSA, five Secretaries, including Secretary Nielsen, have 
determined that the existing DHS Headquarters at the Nebraska Avenue 
Complex (NAC) is insufficient to meet the Department's needs. 
Currently, DHS component headquarters offices are scattered across the 
NCR, which adversely impacts critical coordination. It is clear that 
GSA's development of a new DHS Consolidated Headquarters at St. 
Elizabeths is vital to effective mission execution and to support the 
Department's Unity of Effort. While the threats, challenges, and 
priorities of the Department have evolved over time, the need for a 
consolidated headquarters is just as important today as it was when we 
started this effort in 2006. Aside from the operational benefits, a 
consolidated headquarters allows for effective utilization of the 
Department's resources. Rightsizing the portfolio in long-term 
Government-owned space and taking advantage of the changing dynamics of 
the Federal workplace will reduce long-term occupancy costs and free up 
scarce dollars for other priorities.
                            2014 gao report
    The GAO Report (GAO-14-648), Federal Real Property: DHS and GSA 
Need to Strengthen Management of DHS Headquarters Consolidation, 
provided three recommendations with respect to the St. Elizabeths 
program. The Department concurred with all three and has taken action 
to address each within our responsibilities.
    As a tenant agency, DHS does not manage the development side of the 
St. Elizabeths campus project. We provide programmatic requirements to 
GSA; budget for and fund certain tenant specifications; review GSA-
managed design and construction activities; coordinate with GSA and all 
stakeholders on historic preservation consultations and regulatory 
reviews of the project; and provide oversight on GSA's use of DHS's 
funding in the execution of their responsibilities as the developer. 
All development activities are managed by GSA in accordance with GSA 
policies, to include the preponderance of contracting and construction 
activities. The Department fully cooperates with GSA, but does not 
exercise acquisition oversight or procurement decisions related to 
GSA's property development activities.
    GAO's first recommendation was that GSA and DHS should conduct a 
needs assessment and gap analysis of current and needed capabilities; 
and an alternatives analysis that identifies the cost and benefits of 
leasing versus construction alternatives. In response to the first 
recommendation, DHS worked closely with GSA to revise the Headquarters 
Consolidation Plan, resulting in the development of the Enhanced Plan, 
which served as the basis of the fiscal year 2016 budget request. The 
Enhanced Plan reduced planned construction at St. Elizabeths while 
implementing DHS's new space standards and flexible workplace 
strategies to accommodate 17,000 employees; this represented a 3,000 
staff increase over the original plan. This plan was based on a 
comprehensive revision of the program of requirements for housing DHS 
in the NCR and also accelerated completion of the St. Elizabeths 
construction to 2021 rather than 2026. The relocation from existing 
leased and Federally-owned facilities was aligned with the construction 
plans cognizant of the management of existing lease contracts. DHS 
provided GAO a copy of the business case analysis on November 20, 2015.
    This business case analysis provided the comprehensive needs 
assessment for DHS Headquarters facilities in the NCR based on updated 
space standards and implementation of flexible workplace strategies to 
optimize the DHS portfolio, as recommended by GAO. The analysis 
compared the continued development of St. Elizabeths with Federal 
construction under the Enhanced Consolidation Plan versus commercial 
lease consolidation. The analysis showed that consolidation under the 
Enhanced Plan would provide a $1.2 billion, 30-year present-value cost 
avoidance to DHS, over the best-case commercial lease consolidation 
plan, if funded and executed on a timely basis. The plan was 
prioritized based on lease expirations, which requires an annual 
decision to fund Federal construction, extend or replace existing 
leases.
    The second GAO recommendation dealt with the development of revised 
cost estimates and schedules in accordance with leading practices. As 
noted above, GSA manages these aspects of the project. DHS collaborated 
with GSA in their development of these comprehensive documents over a 
period of more than 2 years.
    The third GAO recommendation indicated that the Secretary of 
Homeland Security should designate the headquarters consolidation 
program a major acquisition, consistent with DHS acquisition policy, 
and apply DHS acquisition policy requirements. DHS concurred with the 
part of the recommendation that the DHS funded portion would come under 
the purview of the Acquisition Review Board. However, given the project 
is managed by GSA in accordance with GSA acquisition polices, it would 
not necessarily follow the fully-defined DHS acquisition process. The 
business case analysis provides the foundational documentation for the 
consolidation and related acquisition efforts. The Department conducted 
a program review of the DHS-funded portion of the project on November 
15, 2016, utilizing the draft updated cost, schedule, and risk data 
developed by GSA in response to GAO recommendations. Further, the 
office I lead, the DHS Office of the Chief Readiness Support Officer, 
is actively working with the DHS Program Accountability and Risk 
Management Office to align the extensive program documentation 
developed under this GSA-managed acquisition to meet the spirit of the 
DHS Acquisition policy guidance.
      department of homeland security headquarters consolidation 
                       accountability act of 2015
    Public Law 114-150, Department of Homeland Security Headquarters 
Consolidation Accountability Act of 2015, requires the Secretary of 
Homeland Security, in coordination with the GSA administrator, to 
submit to the appropriate committees of Congress information on the 
implementation of the Enhanced Plan for the Department's Headquarters 
Consolidation project within the NCR. Given the lack of funding in 
fiscal year 2017 and fiscal year 2018, the plan is misaligned, 
outdated, and no longer accurate. The administration is now revisiting 
the Enhanced Plan. While DHS and GSA developed initial estimates in 
response to the reporting requirement, these analyses are no longer 
informative because of the underlying assumptions about the project's 
schedule. The plan and supporting documentation are now being revised 
with the recognition that certain leases must be re-competed as a 
result of the 2-year delay and that other adjustments are necessary 
given the challenges encountered with historic building renovations on 
the St. Elizabeths campus.
                     next steps with st. elizabeths
    With the fiscal year 2019 President's budget request, DHS Secretary 
Nielsen and GSA Administrator Murphy have committed the Department and 
GSA to continue the Headquarters Consolidation project. It remains 
vital for operations integration and mission effectiveness as well as 
for the efficient management of our property portfolio. Both GSA and 
DHS are committed to completing the remaining development in the most 
cost-effective manner possible. GSA and DHS are working aggressively to 
address priority lease expirations, address certain programmatic 
challenges, and validate remaining occupancy requirements. We believe 
the remaining development needs to focus on cost-effective, space-
efficient construction that maximizes site utilization. DHS and GSA 
will brief our Congressional committees and GAO on our future St. 
Elizabeths plans, as appropriate.
    Despite these challenges, the St. Elizabeths campus project 
demonstrates effective interagency cooperation between DHS and GSA in 
executing this highly complex development in an uncertain funding 
environment. At this time next year, we project we will have reached a 
critical milestone as we will be moving the majority of the Office of 
the Secretary and Executive Management from the NAC to the renovated 
and historical Center Building at St. Elizabeths. The renovation of the 
Center Building will be complete this fall, and will then be followed 
by information technology and outfitting installations.
    At the same time, the National Operations Center construction is 
progressing within the DHS Operations Centers facility. The stand-up of 
this relocation will be synchronized to the Secretary's move. The 
continued build-out and transition of component operations centers to 
St. Elizabeths is a foundational element of the headquarters 
consolidation effort. The collocation of operations centers at St. 
Elizabeths will enhance communications/coordination among components 
and lead to more effective operational resource planning and allocation 
in mission execution. GSA is also proceeding with the Central Utility 
Plant expansion and the Hitchcock Hall renovation that will be 
completed in conjunction with the Center Building occupancy. The new 
Center Building West Addition construction is also well under way with 
occupancy planned for 2020. While all this activity is on-going across 
the campus, GSA and DHS continue to support U.S. Coast Guard 
Headquarters operations, including the Coast Guard National Command 
Center, a joint operations center space housing both the Coast Guard 
Cyber Command Watch and the DHS Chief Information Officer Enterprise 
Security Operations Center, the Information Technology Operations 
Center, and the Campus Security Operations Center.
                               conclusion
    DHS and GSA fully support the St. Elizabeths project. With the DHS 
Secretary's occupancy a year from now, we will have achieved a critical 
milestone in the development of St. Elizabeths. We must continue to 
develop the campus to its fullest potential and leverage the 
significant investment the taxpayers have made in the campus thus far 
by providing the Department with the facilities it needs to 
aggressively perform its mission into the future. We appreciate 
continued support from Congress for this critical investment to help 
advance DHS's mission and Unity of Effort.
    In closing, I would like to assure this subcommittee that DHS is 
working hard to remain a good steward of taxpayers' money by managing 
our real estate portfolio, both Government-owned and -leased, in a 
cost-effective manner that will facilitate securing the homeland and 
save the American taxpayer money. Thank you again for the opportunity 
to testify today on this important matter. I would be pleased to answer 
any questions the subcommittee may have.

    Mr. Perry. Thank you, Mr. Chaleki.
    The Chair now recognizes Mr. Gelber for his opening 
statement.

   STATEMENT OF MICHAEL GELBER, DEPUTY COMMISSIONER, PUBLIC 
       BUILDINGS SERVICE, GENERAL SERVICES ADMINISTRATION

    Mr. Gelber. Good morning, Chairman Perry, Ranking Member 
Correa, and Members of the subcommittee. My name is Michael 
Gelber, and I am the deputy commissioner of the U.S. General 
Services Administration, Public Building Service. Thank you for 
inviting me to discuss the on-going consolidation of the 
Department of Homeland Security headquarters operations on the 
St. Elizabeths campus in Washington, DC.
    GSA's mission is to deliver value and savings in real 
estate, acquisition, technology, and other mission support 
services across the Federal Government. Given the current 
fiscal environment, GSA's working with agencies on multiple 
fronts to reduce and optimize the Federal Government's real 
estate footprint.
    This work includes reducing customer agency's space 
requirements, improving space utilization, reducing real estate 
costs, and delivering space that allows our Federal partners to 
more efficiently and effectively carry out their missions.
    For more than a decade, GSA has worked with DHS, other 
Executive branch offices, Congress, the city of Washington, DC, 
community organizations and others to deliver a consolidated 
DHS headquarters at St. Elizabeths. By substantially reducing 
DHS's more than 45 headquarters locations in the National 
Capital Region, the Department's mission effectiveness will be 
enhanced through colocation. This will strengthen the 
Department's internal and external communication, coordination, 
and responsiveness.
    U.S. Coast Guard's move from Federally-leased space into 
the Federally-owned and -controlled Douglas A. Munro Coast 
Guard Headquarters Building is an excellent example of the real 
and potential benefits of consolidated efforts at St. 
Elizabeths.
    The on-time and within budget completion of the Munro 
Building delivered a modern, secure headquarters to the Coast 
Guard while eliminating five leases in privately-owned 
facilities from the Federal Government's real estate portfolio.
    In addition to the completion of the Munro Building, GSA 
and DHS have delivered a central utility plant which, when the 
current expansion is complete, will meet the energy 
distribution needs of the current and future campus occupants. 
A secure campus perimeter, needed for all planned operations at 
St. Elizabeths, is in place. GSA completed a 2,000-vehicle 
parking garage in August 2013.
    The current phase of the DHS consolidation is the adaptive 
reuse of the historic Center Building. In April 2019 the DHS 
Secretary and executive leadership are scheduled to move from 
the Nebraska Avenue Complex in northwest Washington to St. 
Elizabeths.
    To mitigate traffic congestion in and around St. 
Elizabeths, GSA is working with the District of Columbia's 
Department of Transportation to construct new access road 
extensions along with the reconstruction of the Interstate 295-
Malcolm X Avenue interchange. This infrastructure work is in 
addition to the Metro and shuttlebuses that already serve St. 
Elizabeths and the surrounding area.
    The key challenge faced by GSA with regard to this project 
is that constraints and uncertainties surrounding project 
funding have been a significant detriment to the delivery of 
the consolidated headquarters project. GSA's appropriations 
requests, which total over $400 million for the construction of 
a headquarters for the Federal Emergency Management Agency, 
other DHS components and additional campus infrastructure 
improvements were not funded in either fiscal year 2017 or 
2018.
    Collectively, delays in appropriations have lengthened the 
scheduled completion date for the campus years beyond the 
enhanced plan's completion date of fiscal year 2021.
    As a result, GSA is now working with DHS to update the 
master plan to address the lack of recent appropriations, the 
schedule of DHS commercial lease expirations, and incorporate 
lessons learned from the adaptive reuse of historic campus 
buildings.
    In closing, to maximize the investment taxpayers have 
already made in the campus, GSA and DHS must continue to 
consolidate in a cost-effective manner as many DHS components 
and employees as possible on to St. Elizabeths. For that 
reason, we urge Members of this subcommittee to seek full 
funding for the President's fiscal year 2019 request for St. 
Elizabeths of $229 million for the construction of a 
headquarters for FEMA.
    Thank you for the opportunity to testify today, and I look 
forward to answering your questions.
    [The prepared statement of Mr. Gelber follows:]
                  Prepared Statement of Michael Gelber
                             April 12, 2018
    Good morning Chairman Perry, Ranking Member Correa, and Members of 
the subcommittee. My name is Michael Gelber, and I am the deputy 
commissioner of the U.S. General Services Administration's (GSA) Public 
Buildings Service. Thank you for inviting me to discuss the on-going 
consolidation of the Department of Homeland Security (DHS) headquarters 
operations on the St. Elizabeths campus in Washington, DC.
    GSA's mission is to deliver value and savings in real estate, 
acquisition, technology, and other mission-support services across the 
Federal Government. Given the current fiscal environment, GSA is 
working with agencies on multiple fronts to reduce and optimize the 
Federal Government's real estate footprint. This work includes reducing 
customer agency space requirements, improving space utilization, 
reducing real estate costs and delivering space that allows our Federal 
partners to more efficiently and effectively carry out their missions.
    For more than a decade, GSA has worked with DHS, and other 
Executive branch offices, Congress, the city of Washington, DC, 
community organizations, and others to deliver a consolidated DHS 
headquarters at St. Elizabeths. By substantially reducing DHS's more 
than 45 headquarters locations in the National Capital Region, the 
Department's mission effectiveness will be enhanced through co-
location. This will strengthen the Department's internal and external 
communication, coordination, and responsiveness.
    The U.S. Coast Guard's move from Federally-leased space into the 
Federally-owned and controlled Douglas A. Munro Coast Guard 
Headquarters Building is an excellent example of the real and potential 
benefits of consolidation efforts at St. Elizabeths. The on-time--and 
within budget--completion of the Munro building delivered a modern 
secure headquarters to the Coast Guard while eliminating five leases in 
privately-owned facilities from the Federal Government's real estate 
portfolio.
    In addition to the completion of the Munro building, GSA and DHS 
have delivered a central utility plant which, when the current 
expansion is complete, will meet the energy distribution needs of 
current and future campus occupants. A secure campus perimeter needed 
for all the planned operations at St. Elizabeths is in place, and GSA 
completed a 2,000-vehicle parking garage in August 2013.
    The current phase of the DHS consolidation is the adaptive reuse of 
the historic Center Building. In April 2019, the DHS Secretary and 
Executive Leadership are scheduled to move from the Nebraska Avenue 
Complex in Northwest Washington to St. Elizabeths.
    To mitigate traffic congestion in and around St. Elizabeths, GSA is 
working with the District of Columbia's Department of Transportation to 
construct new access road extensions along with the reconstruction of 
the Interstate 295/Malcolm X Avenue interchange. This infrastructure 
work is in addition to the Metro and shuttle buses that already serve 
St. Elizabeths and/or the surrounding area.
    The key challenge faced by GSA with regard to this project is that 
constraints and uncertainties surrounding project funding have been a 
significant determinant to the delivery of the consolidated 
headquarters project. GSA's appropriations requests, which totaled over 
$400 million for the construction of a headquarters for the Federal 
Emergency Management Agency (FEMA), other DHS components, and 
additional campus infrastructure improvements, were not funded in 
either fiscal year 2017 or 2018. Collectively, delays in appropriations 
have lengthened the scheduled completion date for the campus years 
beyond the Enhanced Plan completion date of fiscal year 2021.
    As a result, GSA is now working with DHS to update the Master Plan 
to address the lack of recent appropriations, the schedule of DHS 
commercial lease expirations, and incorporate lessons learned from the 
adaptive reuse of historic campus buildings.
    In closing, to maximize the investment taxpayers have already made 
in the campus infrastructure, GSA and DHS must continue to consolidate, 
in a cost-effective manner, as many DHS components and employees as 
possible onto St. Elizabeths. For that reason, we urge the Members of 
this subcommittee to seek full funding for the President's fiscal year 
2019 request for St. Elizabeths of $229 million for the construction of 
a headquarters for FEMA.
    Thank you for the opportunity to testify today, and I look forward 
to answering your questions.

    Mr. Perry. Thank you, Mr. Gelber.
    The Chair now recognizes Mr. Currie for his opening 
statement.

    STATEMENT OF CHRISTOPHER P. CURRIE, DIRECTOR, EMERGENCY 
 MANAGEMENT, NATIONAL PREPAREDNESS AND CRITICAL INFRASTRUCTURE 
PROTECTION, HOMELAND SECURITY AND JUSTICE TEAM, U.S. GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Mr. Currie. Thank you, Chairman Perry, Ranking Member 
Correa, the Members of the committee. Appreciate the 
opportunity to be here today. I would like to discuss a couple 
things. One is our past work on the St. Elizabeths project, but 
more important, the future of the project.
    First, like everyone here has said already, we support the 
concept and the ideal of the consolidation. Improving 
coordination of a huge, fragmented department like DHS, saving 
taxpayer dollars, reducing facilities all sound fantastic. 
Unfortunately, ideals don't lead to success without realistic 
planning and execution as well.
    Back in September 2014, we reported on a number of problems 
with DHS and GSA's capital planning related to the project. For 
example, at that time some consolidation plans hadn't been 
updated since 2006, way back when the project was originally 
conceived.
    In that report we also recognized that a significant 
funding gap for the project, which back at that time was about 
$1.6 billion--I think the chart showed that well--was a major 
challenge. However, we also found that the cost and the 
schedule estimates weren't reliable.
    This is important. These estimates are a key factor in 
Congress' funding decisions. So it is also not surprising there 
were concerns about fully funding the project. What we 
recommend is that DHS and GSA take a hard look at the project 
and develop a revised consolidation plan.
    We also recommended they develop alternatives for the 
remainder of the project with various construction and leasing 
options so Congress could understand what options were out 
there.
    Congress agreed with our concerns and codified the 
recommendations, as you noted, in the DHS Headquarters 
Consolidation Act. Unfortunately, there has been little 
progress implementing the act or our recommendations.
    In fact, our concerns about this lack of progress led us to 
designate these recommendations among the handful of highest 
priority recommendations the GAO has open, both at DHS and GSA. 
There is only a few of those so we don't do that lightly. We 
actually have a total of 400 open recommendations, so this 
tells you how important we see this issue as.
    I think it is really important to reiterate the past, but 
many of these issues are even more valid today. So where are we 
today? Well, there is a construction going on at St. E's, as 
has been discussed, on the buildings that will house the 
Secretary and top management. However, what is not being 
discussed, I think, is the future of the project and that is 
still totally unclear.
    Since so much time has passed since initial planning, I 
think there are some really difficult questions that need to be 
discussed today. First, are the original efficiency and 
coordination benefits even still relevant if certain components 
won't be moving there?
    Second, if an expected outcome was cost savings, is that 
still valid given the cost increases we have seen and the new 
leases that are being signed? To be more specific, here are 
some examples of what I am talking about.
    DHS and GSA are requesting $400 million in fiscal year 2019 
in the budget to move FEMA into the St. E's campus. However, we 
found this by digging in voluminous budget documents. Without 
the comprehensive plan we have no idea why this is the next 
step or how it fits in with the overall project.
    Also, the window to bring in other components may have 
already closed. DHS testified almost 4 years ago for this 
committee that 70 percent of DHS leases in the National Capital 
Region expired between 2016 and 2020. At the same hearing GSA 
said that original consolidation plans would eliminate 50 
leases. However, since then, components have signed new leases 
or plan to move outright to other locations, such as TSA.
    As a result, it is not clear that it is even possible for 
St. E's to be the consolidated headquarters that was originally 
planned. Further, these changing conditions make prior 
assumptions about costs null at this point.
    So where do we go from here? We understand that DHS expects 
to issue a revised plan at the end of the year. We are mandated 
in law to review that plan within 90 days. We will do that. But 
I think it is important as DHS and GSA develop this new plan 
that they really consider the lessons of the past and deliver 
something that is very realistic with viable alternatives for 
the project.
    Also now with years of experience building and renovating 
on a historic location, we would also expect the specific 
complexities and challenges that they have faced in doing that 
to be considered as the project moves forward.
    This concludes my statement, and I look will forward to the 
questions.
    [The prepared statement of Mr. Currie follows:]
              Prepared Statement of Christopher P. Currie
                             April 12, 2018
    Chairman Perry, Ranking Member Correa, and Members of the 
subcommittee: I am pleased to be here today to discuss the Department 
of Homeland Security (DHS) headquarters consolidation project at St. 
Elizabeths campus in Washington, DC, including a status update on the 
recommendations that we made in a 2014 report on this issue.\1\ The 
multi-billion dollar construction project, managed by DHS and the 
General Services Administration (GSA),\2\ is the centerpiece of DHS's 
larger effort to manage and consolidate its workforce of over 20,000 in 
the National Capital Region.\3\ As conceived in 2006, the Federally-
owned St. Elizabeths site was designed to consolidate DHS's executive 
leadership, operational management, and other personnel at one secure 
location rather than at multiple locations throughout the Washington, 
DC, metropolitan area.\4\ The St. Elizabeths project is intended to 
allow for more efficient DHS operations and provide long-term cost 
savings by reducing reliance on leased space. From fiscal year 2006 
through fiscal year 2014, the St. Elizabeths consolidation project had 
received approximately $495 million through DHS appropriations and 
approximately $1.1 billion through GSA appropriations, for a total of 
over $1.5 billion.\5\ However, since construction began in fiscal year 
2009, the project has generally received less funding than requested, 
which DHS and GSA officials have stated has led to cost escalations and 
schedule delays. The President's fiscal year 2019 budget requests a 
total of about $400 million for continued consolidation and new 
development funds for the project.
---------------------------------------------------------------------------
    \1\ GAO, Federal Real Property: DHS and GSA Need to Strengthen the 
Management of DHS Headquarters Consolidation, GAO-14-648 (Washington, 
DC: Sept. 19, 2014).
    \2\ GSA, the landlord for the civilian Federal Government, acquires 
space on behalf of the Federal Government through new construction and 
leasing, and acts as a caretaker for Federal properties across the 
country. As such, GSA had the responsibility to select the specific 
site for a new, consolidated DHS headquarters facility, based on DHS 
needs and requirements.
    \3\ The National Capital Region is composed of the District of 
Columbia and nearby jurisdictions in Maryland and Virginia.
    \4\ The St. Elizabeths campus is a National Historic Landmark and a 
former Federally-run hospital for the mentally ill.
    \5\ Since we reported in September 2014 through fiscal year 2018, 
approximately $277 and $485 million more had been appropriated to DHS 
and GSA, respectively, for the St. Elizabeths consolidation project. 
Since fiscal year 2006, amounts appropriated to DHS and GSA for the St. 
Elizabeths consolidation project have exceeded $2.3 billion in the 
aggregate.
---------------------------------------------------------------------------
    In September 2014, we made three recommendations to improve the 
management of DHS headquarters consolidation, and DHS and GSA concurred 
with the recommendations.
    In 2014, we recommended that:
    1. DHS and GSA conduct the following assessments and use the 
        results to inform updated DHS headquarters consolidation plans:
    <bullet> a comprehensive needs assessment and gap analysis of 
            current and needed capabilities that take into 
            consideration changing conditions; and
    <bullet> an alternatives analysis that identifies the costs and 
            benefits of leasing and construction alternatives for the 
            remainder of the project and prioritizes options to account 
            for funding instability.
    2. DHS and GSA develop revised cost and schedule estimates for the 
        remaining portions of the consolidation project that conform to 
        GSA guidance and leading practices for cost and schedule 
        estimation, including an independent evaluation of the 
        estimates.
    3. DHS designate the headquarters consolidation program a major 
        acquisition, consistent with DHS acquisition policy, and apply 
        DHS acquisition policy requirements.
    In our September 2014 report, we further stated that Congress 
should consider making future funding for the St. Elizabeths project 
contingent upon DHS and GSA developing a revised headquarters 
consolidation plan that conforms with leading practices and that: (1) 
Recognizes changes in workplace standards, (2) identifies which 
components are to be colocated at St. Elizabeths and in leased and 
owned space throughout the National Capital Region, and (3) develops 
and provides reliable cost and schedule estimates.
    Subsequently, in 2015, we designated our three recommendations to 
DHS and GSA as ``Priority Recommendations'' due in part to the 
important fiscal and operational implications of DHS headquarters 
consolidation. In addition, we have designated the broader areas of 
Managing Federal Real Property and Strengthening DHS Management 
Functions as High-Risk areas due to mismanagement vulnerabilities or a 
need for transformation.\6\
---------------------------------------------------------------------------
    \6\ GAO, High-Risk Series: Progress on Many High-Risk Areas, While 
Substantial Efforts Needed on Others, GAO-17-317 (Washington, DC: Feb. 
15, 2017).
---------------------------------------------------------------------------
    The Department of Homeland Security (DHS) Headquarters 
Consolidation Accountability Act of 2015, enacted in April 2016 would, 
according to the accompanying Senate committee report, ensure that DHS 
and GSA fully address the recommendations from our September 2014 
report and provide Congress the additional information needed to make 
sound decisions regarding the headquarters consolidation project.\7\ 
Among other things, the Act requires DHS, in coordination with GSA, to 
submit information to Congress about DHS headquarters consolidation 
efforts not later than 120 days after enactment (enacted April 29, 
2016).\8\ Required information includes a comprehensive assessment of 
the difference between the current real property and facilities needed 
by DHS in the National Capital Region, an analysis that identifies the 
costs and benefits of leasing and construction alternatives for the 
remainder of the consolidation project, and updated cost and schedule 
estimates. Furthermore, under the Act, the Comptroller General is to 
report on its review and evaluation of the quality and reliability of 
the cost and schedule estimates not later than 90 days after their 
submittal to Congress.\9\ As of April 2018, DHS and GSA had not 
submitted the required headquarters consolidation information to 
Congress or implemented our related recommendations.
---------------------------------------------------------------------------
    \7\ See Pub. L. No. 114-150, 130 Stat. 366 (2016); see also S. Rpt. 
No. 114-227 (Mar. 14, 2016).
    \8\ Specifically, the DHS Secretary, in coordination with the GSA 
Administrator, is to submit to the Committees on Homeland Security and 
Transportation and Infrastructure of the House of Representatives, and 
the Committee on Homeland Security and Governmental Affairs of the 
Senate, information on the implementation of the enhanced plan for the 
DHS headquarters consolidation project within the National Capital 
Region. See Pub. L. No. 114-150,  2, 130 Stat. at 366-68.
    \9\ See Pub. L. No. 114-150,  2(b), 130 Stat. at 367.
---------------------------------------------------------------------------
    Although DHS and GSA have yet to provide the information to 
Congress, construction is proceeding at the St. Elizabeths campus. 
Figures 1 and 2 show progress made to the Center Building from 
September 2016 to March 2018. This structure will house the Secretary 
of Homeland Security and other key leadership.
Figure 1: The Center Building at St. Elizabeths in 2016 (left) and 2018 
(right)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Figure 2: The Center Building at St. Elizabeths in 2016 (left) and 2018 
(right)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    My testimony summarizes the key findings of our September 2014 
report on DHS and GSA efforts to manage the DHS headquarters 
consolidation project, and provides a status update on DHS and GSA 
implementation of our recommendations. To complete our September 2014 
report, we compared DHS and GSA capital planning efforts against 
applicable leading practices in capital decision making and interviewed 
DHS and GSA officials responsible for the planning and management of 
the DHS headquarters consolidation.\10\ We also compared DHS and GSA 
documents on the estimated cost and schedule for the St. Elizabeths 
project with cost-and schedule-estimating leading practices we have 
identified in our prior work, and relevant GSA guidance.\11\ To assess 
subsequent DHS and GSA actions to implement our September 2014 
recommendations, we conducted periodic follow-up with DHS and GSA 
officials and obtained relevant documentation. The work upon which this 
statement is based was conducted in accordance with generally accepted 
Government auditing standards. Those standards require that we plan and 
perform the audit to obtain sufficient, appropriate evidence to provide 
a reasonable basis for our findings and conclusions based on our audit 
objectives. We believe that the evidence obtained provides a reasonable 
basis for our findings and conclusions based on our audit objectives.
---------------------------------------------------------------------------
    \10\ GAO, Executive Guide: Leading Practices in Capital Decision-
Making; GAO/AIMD-99-32 (Washington, DC: Dec. 1, 1998) and Office of 
Management and Budget (OMB), Capital Programming Guide, Supplement to 
OMB Circular A-11 (Washington, DC: July 2014).
    \11\ GAO, GAO Cost Estimating and Assessment Guide: Best Practices 
for Developing and Managing Capital Program Costs, GAO-09-3SP 
(Washington, DC: Mar. 2, 2009) and GAO Schedule Assessment Guide: Best 
Practices for Project Schedules, GAO-12-120G (Washington, DC: May 
2012).
---------------------------------------------------------------------------
    consolidation plans did not fully conform with leading capital 
     decision-making practices and gao recommendation has not been 
                              implemented
    In our September 2014 report, we found that DHS and GSA planning 
for the DHS headquarters consolidation did not fully conform with 
leading capital decision-making practices intended to help agencies 
effectively plan and procure assets.\12\ Specifically, we found that 
DHS and GSA had not conducted a comprehensive assessment of current 
needs, identified capability gaps, or evaluated and prioritized 
alternatives that would help officials adapt consolidation plans to 
changing conditions and address funding issues as reflected in leading 
practices.\13\ At that time, DHS and GSA officials reported that they 
had taken some initial actions that may facilitate consolidation 
planning in a manner consistent with leading practices. For example, 
DHS had an overall goal of reducing the square footage allotted per 
employee across the Department in accordance with workplace standards, 
such as standards for telework and hoteling.\14\ As we reported in 
2014, DHS and GSA officials acknowledged that new workplace standards 
could create a number of new development options to consider, as the 
new standards would allow for more staff to occupy the space at St. 
Elizabeths than previously anticipated. DHS and GSA officials also 
reported at that time that analyzing different leasing options could 
affect consolidation efforts. However, we found that the consolidation 
plans, which were finalized between 2006 and 2009, had not been updated 
to reflect these actions.
---------------------------------------------------------------------------
    \12\ Congress, OMB, and GAO have all identified the need for 
effective capital decision making among Federal agencies. OMB's Capital 
Programming Guide, a Supplement to OMB Circular A-11, along with GAO's 
Executive Guide: Leading Practices in Capital Decision-Making provides 
detailed guidance to Federal agencies on leading practices for the four 
phases of capital programming--planning, budgeting, acquiring, and 
managing capital assets. These practices are, in part, intended to 
provide a disciplined approach or process to help Federal agencies 
effectively plan and procure assets to achieve the maximum return on 
investment.
    \13\ GAO/AIMD-99-32 and OMB Capital Programming Guide, Supplement 
to OMB Circular A-11.
    \14\ Telework is a work arrangement in which employees perform all 
or a portion of their work at an alternative work site, such as from 
home or a telework center. Hoteling allows allow employees to work at 
multiple sites and use nondedicated, nonpermanent workspaces assigned 
for use by reservation on an as-needed basis.
---------------------------------------------------------------------------
    In addition, we found in September 2014 that funding for the St. 
Elizabeths project had not aligned with what DHS and GSA initially 
planned. We reported that according to DHS and GSA officials, the 
funding gap between what DHS and GSA requested and what was received 
from fiscal years 2009 through 2014, was over $1.6 billion. According 
to these officials, this gap created cost escalations of over $1 
billion and schedule delays of over 10 years relative to original 
estimates. We found in 2014 that these delays posed challenges for DHS 
in terms of its leasing portfolio. Specifically, DHS's long-term 
leasing portfolio was developed based on the original expected 
completion date for St. Elizabeths development in 2016. In 2014, DHS 
and GSA reported that they had begun to work together to consider 
changes to the DHS headquarters consolidation plans, but they had not 
announced when new plans would be issued. Furthermore, because final 
documentation of agency deliberations or analyses had not yet been 
developed, it was unclear if any new plans would be informed by an 
updated comprehensive needs assessment and capability gap analysis as 
called for by leading capital decision-making practices. Therefore, in 
our September 2014 report we recommended that DHS and GSA conduct 
various assessments and analyses and use the results to inform updated 
DHS headquarters consolidation plans. DHS and GSA concurred with this 
recommendation and stated that their forthcoming draft St. Elizabeths 
Enhanced Consolidation Plan would contain these analyses.
    As of April 2018, however, the agencies had not submitted updated 
plan information to Congress that would either meet the requirements of 
the DHS Headquarters Consolidation Accountability Act or address our 
recommendation. According to DHS officials, the agencies prepared a 
comprehensive response to the Act, including updated analyses, but the 
information is no longer current and now needs to be revised and 
revalidated before it is submitted to Congress. Officials told us that 
the updated consolidation plans and analyses assumed that the project 
would receive more funding in fiscal years 2017 and 2018 than was 
appropriated. Further, officials told us that the current 
administration is expected to provide input on the planned DHS 
component occupancies at the St. Elizabeths campus. We continue to 
believe that DHS and GSA attention to following leading capital 
decision-making practices--including having a consolidation plan that 
justifies future actions--is critical given the project's multi-billion 
dollar cost and impact on Departmental operations.
  cost and schedule estimates for the st. elizabeths project did not 
     reflect leading practices and gao recommendation has not been 
                              implemented
    In our September 2014 report, we found that DHS and GSA cost and 
schedule estimates for the headquarters consolidation project at St. 
Elizabeths did not conform or only minimally or partially conformed 
with leading estimating practices, and were therefore unreliable.\15\ 
Furthermore, we found that in some areas, the cost and schedule 
estimates did not fully conform with GSA guidance relevant to 
developing estimates.
---------------------------------------------------------------------------
    \15\ GAO-09-3SP and GAO-12-120G. For both the cost and schedule 
estimates, our analysis focused on how well DHS and GSA met each of the 
four characteristics based on our assessment of conformance to the 
leading practices associated with that characteristic. We then arrayed 
the extent to which DHS and GSA cost and schedule estimates conformed 
with the four characteristics of each using five rating categories--
fully meets, substantially meets, partially meets, minimally meets, or 
does not meet.
---------------------------------------------------------------------------
Cost Estimates
    In 2014, we found that DHS and GSA cost estimates for the 
headquarters consolidation project at St. Elizabeths did not reflect 
leading practices, which rendered the estimates unreliable. For 
example, we found that the 2013 cost estimate--the most recent 
available at the time of our 2014 report--did not include: (1) A life-
cycle cost analysis of the project, including the cost of repair, 
operations, and maintenance; (2) was not regularly updated to reflect 
significant changes to the program including actual costs; and (3) did 
not include an independent estimate to determine whether other 
estimating methods produce similar results. In addition, a sensitivity 
and a risk and uncertainty analysis had not been performed to assess 
the reasonableness of the cost estimate. We have previously reported 
that a reliable cost estimate is critical to the success of any 
program.\16\ Specifically, we have found that such an estimate provides 
the basis for informed investment decision making, realistic budget 
formulation and program resourcing, meaningful progress measurement, 
proactive course correction when warranted, and accountability for 
results. Accordingly, in 2014, we concluded that DHS and GSA would 
benefit from maintaining current and well-documented estimates of 
project costs at St. Elizabeths--even if project funding is not fully 
secured.
---------------------------------------------------------------------------
    \16\ GAO-09-3SP.
---------------------------------------------------------------------------
Schedule Estimates
    In 2014, we also found that the 2008 and 2013 schedule estimates 
(the estimates available at the time of our review) did not include all 
activities for both the Government and its contractors necessary to 
accomplish the project's objectives and did not include schedule 
baseline documents to help measure performance as reflected in leading 
practices and GSA guidance. For the 2008 schedule estimate, we found 
that resources (such as labor, materials, and equipment) were not 
accounted for and a risk assessment had not been conducted to predict a 
level of confidence in the project's completion date. In addition, we 
found the 2013 schedule estimate was unreliable because, among other 
things, it was incomplete in that it did not provide details needed to 
understand the sequence of events, including work to be performed in 
fiscal years 2014 and 2015.
    In 2014, we concluded that developing cost and schedule estimates 
consistent with leading practices could promote greater transparency 
and provide decision makers needed information about the St. Elizabeths 
project and the larger DHS headquarters consolidation effort. However, 
in commenting on our analysis of St. Elizabeths cost and schedule 
estimates, DHS and GSA officials said that it would be difficult or 
impossible to create reliable estimates that encompass the scope of the 
entire St. Elizabeths project. In response to our findings, officials 
said that given the complex, multiphase nature of the overall 
development effort, specific estimates are created for smaller 
individual projects, but not for the campus project as a whole. 
Therefore, in their view, leading estimating practices and GSA guidance 
cannot reasonably be applied to the high-level projections developed 
for the total cost and completion date of the entire St. Elizabeths 
project. GSA stated that the higher-level, milestone schedule currently 
being used to manage the program was more flexible than the detailed 
schedule we proposed, and had proven effective even with the highly 
variable funding provided for the project.
    However, our September 2014 review found this high-level schedule 
was not sufficiently defined to effectively manage the program. For 
example, our review showed that the schedule did not contain detailed 
schedule activities that included all Government, contractor, and 
applicable subcontractor efforts. In our 2014 report, we recognized the 
challenges of developing reliable cost and schedule estimates for a 
large-scale, multi-phase project like St. Elizabeths, particularly 
given its unstable funding history and agreed that incorporating cost- 
and schedule-estimating leading practices could involve additional 
costs. However, we also concluded that unless DHS and GSA invest in 
these practices, Congress risked making funding decisions and DHS and 
GSA management risked making resource allocation decisions without the 
benefit that a robust analysis of levels of risk, uncertainty, and 
confidence provides. Therefore, in our September 2014 report we 
recommended that DHS and GSA develop revised cost and schedule 
estimates for the remaining portions of the consolidation project in 
accordance with leading practices. DHS and GSA concurred with the 
recommendation.
    As of April 2018, however, the agencies had not submitted revised 
cost and schedule information to Congress that would either meet the 
requirements of the DHS Headquarters Consolidation Accountability Act 
or address our recommendation. GSA is leading efforts to revise the 
project's cost and schedule estimates, and according to GSA officials, 
the revised figures will take into account leading cost- and schedule-
estimation practices, including a risk assessment. We continue to 
believe that creating up-to-date, reliable cost and schedule estimates 
for DHS headquarters consolidation should be an integral part of DHS 
and GSA efforts to reassess the project. Without this information, it 
will be more difficult for agency officials and Members of Congress to 
make informed decisions regarding resource allocations and compare 
competing funding priorities.
     dhs did not consistently apply its acquisitions guidance when 
overseeing the st. elizabeths project, but has taken steps to implement 
                          gao's recommendation
    In our September 2014 report, we also found that DHS had not 
consistently applied its major acquisition guidance for reviewing and 
approving the headquarters consolidation project. Specifically, we 
found that DHS had guidelines in place to provide senior management the 
opportunity to review and approve its major projects, but DHS had not 
consistently applied these guidelines to its efforts to work with GSA 
to plan and implement headquarters consolidation. Part of the 
inconsistency was the result of DHS designating the headquarters 
consolidation project as a major acquisition in some years but not in 
others. For example, we found that in 2010 and 2011, DHS identified the 
headquarters consolidation project as a major acquisition and included 
the project on DHS's Major Acquisitions Oversight List.\17\ Thus, the 
project was subject to the oversight and management policies and 
procedures established in DHS major acquisition guidance; however, the 
project did not comply with major acquisition requirements as outlined 
by DHS guidelines. For example, we found that the project had not 
produced any of the required key acquisition documents requiring 
Department-level approval, such as life-cycle cost estimates and an 
acquisition program baseline, among others.
---------------------------------------------------------------------------
    \17\ At the time of our 2014 report, DHS reviewed its acquisition 
portfolio annually and designated programs as major acquisitions based 
on DHS investment thresholds. Generally, programs that incurred costs 
greater than $300 million over the life cycle of the program were 
considered major acquisitions. In 2014, DHS changed the name of the 
Major Acquisition Oversight List to the Master Acquisition Oversight 
List to more accurately distinguish between the Department's major 
(Level 1 and 2) and non-major (Level 3) acquisitions and nonacquisition 
activities included in the list.
---------------------------------------------------------------------------
    As we reported in 2014, in 2012, the project as a whole was dropped 
from the list. Subsequently, in 2013 and 2014, DHS included the 
information technology (IT) acquisition portion of the project on the 
list, but not the entire project. DHS officials explained that they 
considered the St. Elizabeths project to be more of a GSA acquisition 
rather than a DHS acquisition because GSA owns the site and the 
majority of the building construction is funded through GSA 
appropriations. In our 2014 report, we recognized that GSA had 
responsibility for managing contracts associated with the headquarters 
consolidation project. However, we also noted that a variety of 
factors, including the overall cost, scope, and visibility of the 
project, as well as the overall importance of the project in the 
context of DHS's mission, made the consolidation project a viable 
candidate for consideration as a major DHS acquisition. By not 
consistently applying this review process to headquarters 
consolidation, we concluded that DHS management risked losing insight 
into the progress of the St. Elizabeths project, as well as how the 
project fits in with its overall acquisitions portfolio. Thus, in our 
September 2014 report we recommended that the Secretary of Homeland 
Security designate the headquarters consolidation program a major 
acquisition and apply DHS acquisition policy requirements. DHS 
concurred with the recommendation.
    As of April 2018, DHS has made some progress implementing this 
recommendation. For example, on September 16, 2014, DHS issued an 
Acquisition Decision Memorandum designating the DHS-funded portions of 
the headquarters consolidation program as a Major Acquisition Program 
to be overseen by the Departmental Acquisition Review Board (ARB). DHS 
also made progress implementing this recommendation by conducting and 
documenting an ARB of the program in November 2016. The ARB process 
provided DHS greater oversight of headquarters consolidation, and 
provided a forum for officials to consider a wide range of issues 
affecting consolidation efforts, such as funding and project scope. In 
addition, in January 2018, DHS officials reported that they were 
working to align headquarters consolidation program documentation to 
meet the spirit of DHS acquisition policy guidance. We will reassess 
the status of this recommendation after the consolidation plan and cost 
and schedule estimates are updated and submitted to Congress per the 
DHS Headquarters Consolidation Accountability Act. At that time, we 
believe there will be more certainty about the future direction of the 
project overall, and DHS's funded portion in particular, and we will be 
better able to assess the level of DHS acquisitions oversight for the 
project.
    Chairman Perry, Ranking Member Correa, and Members of the 
subcommittee, this concludes my prepared statement. I look forward to 
responding to any questions that you may have.

    Mr. Perry. Thank you, Mr. Currie.
    The Chair now recognizes himself for 5 minutes of 
questions.
    With that, I think I will start with you, Mr. Currie. I am 
concerned. I am not sure how it is going to work out, but I am 
concerned there is going to be, like, well, it is that guy, 
right? Or it is going to be I think, you know, with all due 
respect, it is going to be there is a funding shortfall and let 
me just start there before I ask you any questions.
    So I have got a list of projects here that have been fully 
funded. I can go through a whole list of acronyms, access road 
extension, Center Building West addition, OHA, DNDO, and S&T 
relocation into the Munro Building. I can go through a whole 
list of things here that are fully funded yet not complete.
    So just in laymen's terms, just in laymen's terms as a 
person who lives a life and runs a household, like, which one 
of any of us in the room gives money to somebody that can't 
complete the things that we already paid for before?
    Then when they come and say, well, we need more money, 
somehow it is our fault that we didn't give you more money even 
though you haven't shown the ability to complete the things we 
have already fully paid for, right? So that is a concern.
    I am willing to listen to this argument that it has not 
been adequately funded, but I think that is questionable, at 
least questionable. That having been said, I am trying to 
determine the relationship between DHS and GSA as the 
developer.
    DHS is a tenant, right? So GSA is the one that is doing the 
work but DHS has requirements. That is fair.
    I guess my larger question from your standpoint, DHS 
holding up GSA by changing requirements, by slow-walking or not 
knowing what they need and then it shows up later and there 
have to be changes, is this relationship, is it a fair 
relationship and is it a sound relationship that is sincere and 
working well?
    Mr. Currie. Yes.
    Mr. Perry. Because we are looking for accountability here, 
too.
    Mr. Currie. Yes, yes, sir. No, it is a great question. I 
mean, I think one thing that is important to say here from the 
front is that GSA works with every Federal department and 
agency on these kinds of issues. This isn't the first--this 
project is actually----
    Mr. Perry. Right.
    Mr. Currie [continuing]. Not that unique. The location is 
unique, but, you know, been doing this for 100 years. So I mean 
GSA works with every Federal department and agency and has the 
same relationship with those agencies. So the complexities of 
this are not solely related to just the funding issue of this 
project or the location.
    There have been many projects in the past where there have 
been similar challenges. I mean, that is one of the reasons, 
you know, Federal real property has been on GAO's high-risk 
list for so long because this funding issue is such a difficult 
challenge to address.
    I mean, this is one of the reasons we always bring up these 
best practices in capital planning. This is why cost estimates, 
great planning is so important and realistic analysis of 
alternatives. I know that is kind of a buzzword, but----
    Mr. Perry. Sure.
    Mr. Currie [continuing]. What that means is, is do you have 
a menu of options if things don't go so well? I think those are 
critical for you all to be able to assess.
    Mr. Perry. I don't want to be hypercritical here, and I 
understand that. You know, to a certain extent I understand 
that you are digging something up. You are fixing an old 
building. You have got these historic preservation 
requirements. You run into a foundation problem.
    I understand and I don't understand to a certain extent, 
but when we did the assessment that is part of the assessment. 
Can we fix this thing to standard and what kind of problems do 
we foresee? Any kinda working with an existing old structure 
you are going to run into things that are unforeseen, and I get 
that.
    But like you said, you have got to update your plans if you 
see something that has happened. This is like years and years 
on now and it seems like that is used as a crutch to not get 
things complete as opposed to a real reason why things have 
changed and things have been drawn out.
    But my real question here, and I am not sure I feel 
comfortable with the answer is, is that is GSA, are they 
proceeding with--with the mandate that they have or are they 
being hindered by DHS in any way in completing this? Because I 
am trying to get to some accountability here. Who is dropping 
the ball here? Is it DHS or is it GSA?
    Mr. Currie. Well, it is hard for me to say. I don't----
    Mr. Perry. Well, I doubt they are going to say, right? 
Unless they probably work together and don't want to point to 
each other. But somebody is dropping the ball. I am trying to 
figure out who it is and why.
    Mr. Currie. Well, I mean, our recommendations we have made 
were to both in our report in 2014, I mean, for GSA from the 
standpoint of using those leading practices in the construction 
development. But also to DHS in making sure that it brings this 
project underneath its own major acquisition process so I think 
they have equal responsibility in this.
    I think they have equal leverage in this project. I don't 
think one has more than the other. There are definitely 
distinct responsibilities, but it is absolutely a joint 
project.
    Mr. Perry. I hate to say it, but maybe that is the problem, 
right? Maybe DHS should say GSA, this is your project. Here is 
what we need. Tell us when it is done. Then at least we got 
someone to go to and say get this done and if you don't, here 
are the consequences. Right now, I think we are going to get 
this all day long.
    With that, I yield to the Ranking Member.
    Mr. Correa. Thank you, Mr. Chair. I want to follow up with 
some of your questions and thoughts about efficiency. First of 
all, if you can lift this? This is essentially a chart of the 
funding, or lack thereof, inconsistent. Is that a factor in all 
of this?
    Mr. Currie. Well, yes, sir, I mean we----
    Mr. Correa. Major factor or minor factor?
    Mr. Currie. Oh, it is a major factor, I mean, but like I 
said before, this is a major factor in a lot of these capital 
planning projects and a lot of these construction projects in 
Government. This is not a new issue, and I think that that 
doesn't excuse----
    Mr. Correa. So, we have the act of 2015 over here that took 
into consideration a lot of the old inconsistencies in terms of 
funding. As the Chair was saying, some of the projects were 
funded, some were not.
    We have the Coast Guard that is essentially doing a little 
better job or a lot better job than the rest. Should we put the 
Coast Guard in charge of this project? That is not a question 
to answer here, but just to think about.
    DHS versus GSA, the act of 2015, it sounded like that act 
was really supposed to get everybody to coordinate a little bit 
better, to acknowledge all the past inconsistencies--I am not 
going to say mistakes, but maybe folks dropping the ball. It 
sounds like we are supposed to update the plan, change the 
plan.
    I would imagine you are supposed to do this on an on-going 
basis. Private-public partnerships where I come from, Orange 
County, got a little bit involved in those, and asked for the 
public and the private sector always talking with each other. 
As you are building, you are changing the plan because of those 
unforeseen circumstances so you continue to move the project 
forward.
    Here it sounds like that is not what is going on. So like 
the Chair said, how do we move ahead and not keep dropping the 
ball here? You are spending about $2 billion a year on these 
leases and maintenance outside you are paying through the 
private sector that could be used to, you know, build this out, 
to finish this project. Yet I am not hearing a specific date 
when this whole project is going to be done.
    What is it that we need to do? Does a law have to be passed 
that you all come back to us every month to say how you are 
working together or how you are not working together?
    It is not about pointing fingers. It is about saving 
taxpayer dollars, making sure we have the best, the most 
efficient security, that our citizens, you know, deem that they 
need, that they deserve, and it is not happening. Open it up 
for any of you to give us some answers here.
    Mr. Gelber. Thank you. Sir, if I could just address this 
matter and some of the points that were made regarding the 
General Services Administration and how we work with the 
Department of Homeland Security? We have a partnership.
    We have been working together on this project for an 
extended period of time. The significant challenge that GSA 
faces on this project is the lack of regular funding to 
actually implement the plans that we develop.
    Across the campus, we have spent close to $500 million on 
infrastructure improvements with the expectation that the 
campus will accommodate over 10,000 people--the current number 
is 12,800. So the goal is by providing a steady stream of 
funding, year in and year out, over a period of time to 
complete this project, that will facilitate the work that we 
are intending to do.
    In 2015, in response to the GAO audit----
    Mr. Correa. So you are saying, sir, that this chart, this 
inconsistent funding is the major factor why things are getting 
held up?
    Mr. Gelber. It is a significant issue in our ability both 
to plan and implement when we request money in 2016, 2017, 2018 
and are only provided funding in 2016. It is difficult to then 
build the buildings that we are proposing to build. Without 
money, we simply cannot proceed.
    The money that has been provided to us we have created 
infrastructure. We have created facilities at the campus. That 
is your reference to Munro Building. The Central Building will 
come on-line next year. Where we have money, we have 
implemented and created the infrastructure that Congress has 
requested us to provide.
    Mr. Correa. Mr. Chaleki.
    Mr. Chaleki. Yes, sir, I would echo GSA's concerns as well. 
GSA builds the buildings and they build those buildings to our 
requirements. Our job is to provide clear, unambiguous 
requirements to GSA.
    But what we also need is we need a sequenced time line on 
when things will happen. Because our move to St. E's is 
predicated on----
    Mr. Correa. Who provides that sequenced time line?
    Mr. Chaleki. We work together on that because we have to 
line up our existing commercial leases, time those out so we 
expect a building at this point, this is when our lease 
expires, and that is when we are prepared to move in.
    You know, there may be construction difficulties that move 
that time line out. I am not going to say that it is GSA's 
fault. That is not my fault. My experience is----
    Mr. Correa. That is just the way business----
    Mr. Chaleki. That is the way it is when dealing with some 
of these buildings, sir. When that happens, we have to make 
adjustments. Just like we do at the Center Building, we made 
adjustments and we are going to to move forward.
    Sometimes those are painful. Sometimes they result in we 
have to consolidate in other leases where we were expecting to 
go into St. Elizabeths, and that has a downstream effect to our 
overall plan. That is where we are right now.
    Mr. Correa. Mr. Chair, I yield.
    Mr. Perry. The Chair thanks the gentlemen.
    The Chair now recognizes Mr. Higgins from Louisiana.
    Mr. Higgins. Thank you, Mr. Chairman.
    Gentlemen, this conversation we are having today is exactly 
reflective of why the American citizens that we serve just 
stare upon Washington, DC in disbelief. We are going to spend 
$4 billion--a billion is 1,000 million--to house agencies under 
one campus, in this case.
    So I wasn't here in 2006 when the decision was made to move 
what should be the most modern and responsive agency in the 
world into a campus that was founded in 1855. I did historical 
renovations in college as a carpenter. It is difficult work.
    When you are talking about constructing the most modern and 
capable, responsive, off-the-grid, protective network of 
agencies in the modern world, how are you going to run your 
fiber optics? How do you run your counter-espionage 
technologies? How do you run your surveillance technologies?
    Well, I wasn't here when that decision was made, because I 
would have made a lot of noise about it. It is incredible to me 
that across the expanse of these United States of America, we 
cannot find a more efficient means by which--and location--to 
house a consolidated headquarters for the Department of 
Homeland Security and associated agencies.
    Mr. Currie, you mentioned several times ``best practices in 
capital planning.'' In your wildest imagination, you said you 
have been doing this for a long time. When would it ever be 
best practices in capital planning to put the most modern 
facility, or what should be the most responsive and modern 
facility on the earth, in a campus established in 1855?
    Explain to me, please, and to the American people how that 
could possibly be reflective of best practices in capital 
planning.
    Mr. Currie. Yes, sir. I think it is a great question. I 
mean, I think it is a good question for DHS and GSA back at the 
time in 2006 when the decision was made.
    But, I mean, one of the points we have been making is that 
these complexities and these challenges, and especially the 
experience they have had so far building on this campus, have 
to be figured into the future. Because it is likely that these 
challenges are not going to just go away with the other 
buildings that are going to get renovated and the----
    Mr. Higgins. Well, the American people want it to go away. 
The American people expect the Federal Government to operate 
within the parameters of the revenue that we take in. We are a 
Nation that is $20 trillion in debt, and yet we continue to 
have conversations and throw around numbers like $4 billion for 
an office complex, for Christ's sake.
    You have the most luxurious hotels across the world built 
for less money with more square footage, modern from the ground 
up.
    I wasn't here when that decision was made in 2006. I wasn't 
here in 2009 when construction began. I wasn't here in 2014 
when your report was turned in, but I am here now and we are 
going to make some noise about this.
    Now, all of us are stuck with this ridiculous plan. We have 
to complete it. This committee is going to expect excellent 
response from the agencies responsible for spending the 
people's treasure on this perhaps the worst idea in the history 
of best practices in capital planning ideas.
    I ask you, Mr. Gelber, to please give me some feedback. 
Leave me with something uplifting, sir. Explain to the American 
people how we can move forward more efficiently to complete 
this poorly devised and planned construction project.
    Mr. Gelber. Well, sir, I would like to say that while GSA 
is working on some of the historic structures on the facility, 
we are also, in concert with the Department of Homeland 
Security, creating those modern, new office buildings that you 
are referencing.
    The Munro facility was a ground-up construction. Our 
proposal for the FEMA facility would be a brand-new facility 
that would not be engaged, if you will, or interacting with an 
existing historic structure.
    Sir, our goal is to respond to the mission needs of the 
Department of Homeland Security, provide them the mission space 
to do their work, and to do that within the modern facilities 
that you are referencing. That is what we are working to do. 
But in order to do that, sir, we do need the money in order to 
proceed.
    Mr. Higgins. Thank you for your response.
    Mr. Chairman my time has expired. I yield back.
    Mr. Perry. The Chair thanks the gentleman.
    Chair now recognizes the gentlelady from New York, Miss 
Rice.
    Miss Rice. Thank you, Mr. Chairman.
    Mr. Gelber, can you explain--forgive my ignorance, but how 
did GSA choose St. E's as the ideal spot to do this whole 
consolidation?
    Mr. Gelber. Well, like many other site selections that we 
engage in, it is a variety of factors. We work with the agency 
that is looking for the space, and we also respond to, if you 
will, the tenor of the time. At that time, when the Department 
of Homeland Security was stood up, following the attacks of 9/
11, there was the desire to collocate the Department's 
components in one space.
    The decision is as the Department, it needs to be within 
the boundaries of the District of Columbia. So one primary area 
that was looked at was the St. Elizabeths campus. It had 
recently been declared excess, no longer needed by the 
Department of Health and Human Services.
    So it was viewed as an opportune site that was large 
enough, that could become secure enough, to address the 
Department of Homeland Security's needs, while also addressing 
other local community issues, including development 
opportunities within the District of Columbia.
    As with most site selections, we are looking to balance a 
variety of factors and seek what is the best location that 
meets as many of those requirements as possible.
    Miss Rice. Coming to that determination, you obviously 
looked at the location, seen what kind of condition it was in, 
how that would affect the cost and efficiency of actually doing 
renovations that could give DHS what they needed? Even after 
looking at all of that, it was still understood to be a good 
location?
    Mr. Gelber. That is correct, ma'am, primarily----
    Miss Rice. Yes.
    So Mr. Currie, you said at some point when you were 
speaking that you expect some doubt about St. E's actually 
being a place that can, going forward, be what DHS needs it to 
be. Can you expound on that?
    Mr. Currie. Absolutely. So much has changed since 2006 that 
I think the original ideals and the concepts that are still 
being discussed a lot today, this idea of what is a 
consolidated headquarters? I think when you open up the hood 
and you look underneath, and you look at some of the initial 
plans of who they planned to bring over to St. E's, are pieces 
of certain agencies.
    At this point, we are potentially not talking about a 
headquarters where every single component is there, the 
leadership of the component is there. That was the original 
vision. That has been scaled back.
    Of course, I have to caveat that, because we don't have an 
updated plan. You know, the last plans that we have seen are 
more than a couple years old. So I feel like there is----
    Miss Rice. Can I just stop you right there for 1 second?
    Mr. Currie. Sure.
    Miss Rice. Because I am a little confused. It is what came 
first, the chicken or the egg, kind of thing. I mean, are your 
concerns--you are saying that you don't have an updated report 
about what plan should be implemented. They might say we you 
don't have an updated report because we ran out of money and 
now we are trying to play catch-up.
    I mean, in your opinion, what came--because it is a little 
frustrating. I could close my eyes and open them and be at a 
V.A. hearing. I am on the Veteran's Affairs Committee. I could 
be hearing this same thing about construction of V.A. hospitals 
across this country.
    The same inefficiencies, the same late reports, the same, 
you know, God-knows-where the money went. So can you unravel--
it is a conundrum for me. I don't understand why this seems to 
happen every time the Government is involved in rehabbing or 
building something.
    Mr. Currie. Yes. Absolutely.
    Miss Rice. By the way, I am not bringing politics into--
there is plenty of blame to go around. You know, Trump cut the 
money for this project, I get it. But when Democrats were in 
control, I am sure we were maybe that not--so this is not a 
political issue.
    Really, let us try to get to the bottom of why it is that 
no project like this, regardless of the Federal agency that is 
the subject of it, ever seems to get done on time and on 
budget.
    Mr. Currie. Yes, yes, I can address that. So I mentioned 
before that, you know, Federal real property has been on our 
high-risk list at GAO for a long time, and this is one of the 
reasons. It is very difficult to have these large projects 
without all the funding up front, to get it piecemeal on the 
uncertainty.
    There is no----
    Miss Rice. Has the Government ever funded a project up 
front? Has there ever been an instance where a report is given, 
everyone acknowledges, OK, this is what--like, and not, you 
know, a year and a half ago. I am understanding that, you know, 
obviously costs rise. If you give an estimate on, you know, a 
project in 2006, it is clearly not going to cost the same in 
2015 or 2018.
    But has there ever been a construction project that was 
fully funded up front?
    Mr. Currie. I don't have an example for you off the top of 
my head. I can definitely get back to you with some specifics 
across different agencies through on that.
    Miss Rice. I am just curious, you know, whether that ever 
happens. But--so go ahead. I am sorry.
    Mr. Currie. No. I think your points are valid. I mean, we 
have said before that the funding issue is a challenge. But it 
is a challenge in a lot of projects. I think one of the things 
we told DHS and GSA in 2014 is that understanding the funding 
uncertainties, which always exist, and austere budget 
situations, which also always exist, those have to be factored 
into realistic plans.
    I think there have to be options going forward. So if we 
get all the funding we could hope to ever get, then this is 
what option A looks like when we finish. But if we don't----
    Miss Rice. Can I stop you there, Mr. Currie, because my 
time is running out? With the Chairman's indulgence, why was 
St. E's a good choice in 2006 and not in 2018? Is it 
technology?
    Is it the idea that maybe not everyone has to be colocated 
physically? Tell me, because it seems to me that if that is 
what we are talking about, and your opinion is that this should 
not be a campus right there, I mean, where do you go or what is 
your opinion?
    Mr. Currie. No, ma'am. I want to be clear. We don't either 
support or not support the idea of St. E's. We support that 
consolidation is a good idea for coordination's sake. I think 
what we have looked at is the process and the practices that 
have been used.
    What we think is needed is a realistic option plan for 
moving forward, given the reality of the situation.
    Miss Rice. But you mean option as in an alternative other 
than St. E's, or----
    Mr. Currie. Well, just alternatives in general, given the 
uncertainties and the complexities of the project moving 
forward.
    Miss Rice. Even given how much money has already been put 
into the project, do you still think there should be 
alternatives to maybe doing something somewhere else?
    Mr. Currie. I am not saying there needs to be something 
done somewhere else. I am just saying there needs to be 
alternatives considering what has happened so far and the 
complexities of the project.
    Miss Rice. OK.
    Thank you, Mr. Chairman.
    Mr. Perry. The Chair thanks the gentlelady.
    The Chair recognizes the gentleman from Virginia, Mr. 
Garrett.
    Mr. Garrett. Thank you, Mr. Chairman.
    I want to tip my hat to my colleague, Congresswoman Rice. I 
want to also take a little bit of a swipe at my good friend, 
Congressman Thompson, and his statement that you might find at 
the back of the room, if you are in the press. It says, 
``Republicans have failed to deliver consistent funding 
throughout the entirety of the project.''
    Except I am not that good at Google. Having said that, this 
idea was conceived in 2006. The ground was broken in 2009. I am 
pretty sure that the 111th Congress, who was originally 
responsible for putting this funding forward, wasn't led by 
Republicans. I could go on, but I won't, because as Miss Rice 
rightly indicated, it is time to stop fixing blame and start 
fixing problems.
    So we sit here discussing the consolidation of a 
department, Homeland Security, tasked with defending the 
American people from an emerging and dynamic set of threats 
that aren't even the same as we could have contemplated in 
2006.
    I read in this report, and these are the report's words, 
not mine, footnoted, ``too much emphasis may have been placed 
on revitalizing neighborhoods in Washington, DC.'' Where in the 
mandates of DHS does it say we should be revitalizing 
neighborhoods in Washington, DC? That is rhetorical.
    Negotiations with historic preservationists led to a 3-year 
delay. I note that my colleague, Mr. Thompson, fails to mention 
that, but it is a tragic note when we can't build an outhouse, 
let alone a fence across the desert, without knowing that there 
are going to be lawsuits. Now, none of this is targeted at you 
three gentlemen. But wait, because it is coming.
    So in 2006, a plan for consolidation emerged. Construction 
begins in 2009. The original estimated completion date is 2016. 
Then it is moved to 2021. Then it is moved to 2026. We hear, 
oh, it is funding, it is funding, it is funding.
    When I was a taxpayer and not a member of this august body, 
I got so sick and tired of the concept that money would solve 
all the problems in the world. If we can't estimate the actual 
cost of anything, which is what your testimony just indicated, 
anything accurately on the front-end, then why should we even 
work with the numbers?
    What I would do, as a history major, not a mathematician or 
an engineer, is look at cost overruns on Government projects 
across the board, figure out what the average percentage is and 
tack that crap on at the beginning so that there is a little 
bit of transparency and honesty for the taxpayer.
    But here we sit fighting with historic preservationists and 
revitalizing the District of Columbia's housing, which I am not 
sure where it falls in the DHS mandate, but I am pretty sure it 
is not there. We have got a headquarters that is designated to 
protect the American people from very real existential threats 
of death. We are pushing numbers back from 2016 to 2021 to 
2026.
    So here is what flummoxes me as somebody who still sort of 
identifies with the private sector. I will betcha, and this 
question is coming, that nobody responsible for--and don't tell 
me about funding when there is no DHS request, none, in the 
fiscal year 2018 budget for a single dollar.
    We have got $135 million requested from GSA. Don't talk to 
me about partisan responsibility when the blood is on both 
sides' hands--both sides' hands.
    Talk to me about who has been fired for failure to meet 
time lines set by law by this body. A name, one name of one 
person who has been held to account. Anybody been fired? Has 
anyone been reprimanded? One name. Has anyone responsible for 
meeting these deadlines, who has failed to meet these 
deadlines, been subsequently promoted?
    I mean, sometimes I wonder why we are here. Again, not 
targeting you three gentlemen. But at some point, again, and I 
would again tip my hat across the aisle to Congresswoman Rice, 
it is time to stop fixing blame and start fixing problems.
    The Department of Homeland Security should not be in the 
business of revitalizing D.C. neighborhoods, and we should not 
be building multi-billion dollar facilities where we know that 
we are going to have 3-year long delays because of historical 
preservationists.
    Consolidation, good idea. Communication, good idea. Might 
have saved lives on 9/11. But all this is reasonably 
foreseeable. Overrun on costs? It is as predictable as the 
swallows returning to San Juan Capistrano.
    How can we do it differently? I apologize for the 
soliloquy, but we have to change the paradigm. I want you 
gentlemen, please, and I mean this sincerely and with all due 
respect, and a lot is due, to start looking for ways to do 
things differently, to start looking for ways to hold people to 
account.
    When you go home at night and you know you can't be fired 
to failure to meet a deadline that is, in fact, the law of the 
land, what is your motivation, right, to steal a Hollywoodism? 
So again, my tone, as it relates to you three individuals, who 
are probably not directly, personally responsible, I apologize.
    But when we are spending DHS money to revitalize 
neighborhoods in Washington, DC, God forbid there is a 
cascading cyber attack tomorrow. God forbid that there is some 
sort of unconventional terror attack involving chemical or 
biological threats that might have been precluded had we had 
consolidation and communication across lines tomorrow because 
who do we have to blame? I say we, not you, us. We have us to 
blame.
    Thank you, Mr. Chairman.
    Please, I don't want to do this again in 5 years. They were 
doing this in 2013. I don't want to do this again in 2022, 
2023. I don't. Thank you.
    Mr. Perry. How fortuitous.
    The Chair thanks the gentleman, and now recognizes the 
gentleman from Kansas, Mr. Estes.
    Mr. Estes. This was a monumental project. A lot of times 
monumental projects struggle to be successful. I know I missed 
part of the introductory comments, but thinking through of how 
do we best use our resources in moving forward in terms of what 
we are trying to accomplish in terms of spending the taxpayer 
resources in the right manner, making sure that we look at all 
of our different unique agency needs through that as well.
    So I guess my question more centers around--and I apologize 
if some of this was mentioned before, but is there the 
strategic plan to say how do we make sure we address the 
different needs of agencies and consolidate and making those 
more effective moving forward?
    Mr. Gelber. Sir, if I could address that, and obviously my 
colleagues can if they wish, as well? Our intent, we fully 
agree with the Government Accountability Office, is to develop 
a new plan to move forward with this project.
    The previous plans have been created to become out of date 
because of changes in circumstances, primarily the lack of 
funding. Our goal is to have a plan that is as responsive as 
possible to the uncertainties that we face, but also meets the 
mission needs of the Department of Homeland Security.
    Prior to your arrival, there were references--and I do want 
to clarify this. When GSA has been providing money for this 
project, we have used that money and created the infrastructure 
we have promised and committed to do as per the law.
    Some of that work has been on time and on budget. Some of 
that work unfortunately has delayed. Currently, the Center 
Building is delayed, and we acknowledge that delay.
    But our goal is to work with the Department of Homeland 
Security, create a new plan that addresses their mission needs, 
which have by and large not changed since the inception of this 
project, but also address the realities working within that 
campus that has been identified to date.
    GSA, the Department of Homeland Security, the American 
taxpayer, has expended close to $500 million at this facility 
to create infrastructure. To walk away from that infrastructure 
at this point, while that is possible, in GSA's opinion would 
not be appropriate, because it would lose the opportunities 
that we have created by the work that we have done to date at 
that facility.
    Mr. Estes. You just mentioned--and again, I apologize if it 
was brought up before, in terms of dollar amounts, but you 
mentioned a lack of money in previous.
    Can we talk through that in terms of either we have not 
done what expectations were set differently as the Legislative 
and Executive branches planned for and appropriated for, versus 
what the needs? How do we make sure that we make ourselves in 
alignment moving forward so that that is addressed?
    Mr. Gelber. Understood, sir. In 2014, GAO issued a report 
requesting an effective plan for this facility. In 2015, the 
Department of Homeland Security and GSA developed what we refer 
to as the enhanced plan. That plan was predicated on a 4-year 
funding stream, fiscal year 2016, fiscal year 2017, fiscal year 
2018, and fiscal year 2019.
    The intent was that with the money provided in fiscal year 
2016, we could complete some existing infrastructure at this 
facility. Fiscal year 2017, we planned to use that money for 
the Federal Emergency Management Agency. Fiscal year 2018, we 
planned to use that money for the Immigration and Customs 
Enforcement, ICE, organization. In fiscal year 2019, we planned 
to use that money for Customs and Border Protection.
    Fiscal year 2016, we received the money we requested, and 
we have been using that money as we said we would. Fiscal year 
2017, we did not receive the money for FEMA, which then led us 
to have to revise our plan, which no longer made it possible 
for us to consider the funding for the ICE headquarters or the 
CBP headquarters.
    Understandably these are difficult times in terms of budget 
discussions and how funding is available. I understand 
difficult decisions need to be made.
    But the impact of those decisions on this particular 
project is that our goals for FEMA, ICE, and CBP have not been 
able to be implemented. That is why DHS and GSA are now working 
to develop a revised plan to see how we can best move forward.
    Mr. Estes. I don't want to rehash things that have happened 
years ago. I mean, obviously when--I won't use the term--the 
rug gets pulled out from under you. But when either directions 
change from a funding approach, how does the process work to 
come back and say, OK, that 4-year plan needed to be changed? 
How do we approach that now moving forward?
    Mr. Gelber. The way we approach that now, at least from 
GSA's perspective, is we are working with DHS to develop a new 
master plan for the facility that will account for the 
realities of where we are and what we have learned with our 
construction at the campus.
    Account where we are with the various leased facilities 
that we have with DHS around the Washington, DC area and with 
DHS's input, working together, develop a new plan for the 
facility that says here is the level of infrastructure that we 
can create at the St. Elizabeths campus. Once those buildings 
are built, here are the entities from DHS that will be able to 
be moved in.
    Our goal working with DHS is to develop that plan during 
this calendar year and then present it as DHS has been 
requested the statute to provide that plan.
    Mr. Estes. Thank you.
    My time is up, I yield back.
    Mr. Perry. I am going to go for another round for anybody 
that wants to stick around. I might be short in my questions.
    But let me turn to Mr. Chaleki here. The Munro building 
reconfiguration was fully funded, unless you tell me it is not, 
but that is my understanding so correct me if I am wrong, in 
2016, at $26.7 million. What is the current status of that 
project?
    Mr. Chaleki. Yes, sir. It was fully funded in 2016. So what 
we have been looking at is working with the Coast Guard to look 
at what are the options going forward? So where we are right 
now is Coast Guard has a number of concerns with moving other 
folks in there. Right now we are looking at CWMD or Science and 
Technology as possible tenants to go in there.
    So we are looking at the range of options in terms of 
number of people we can go in, see configurations, all of those 
things. Coast Guard has serious reservations about this, and 
that is what we have been working on with the Coast Guard is to 
determine what is the best alternative going forward?
    Mr. Perry. When was that project supposed to be completed, 
if you know?
    Mr. Chaleki. I believe around 2018, yes, sir.
    Mr. Perry. All right. So 2018, and just for the record, 
again, not to--I agree with both sides here. I mean, look, we 
got our differences here in this room. But the one thing I 
think we all have in common is we are pretty frustrated with 
the circumstances here. So there is $26.7 million fully funded, 
not done.
    What about the access ramp or the road extensions on I-295? 
What is the story there?
    Mr. Gelber. That is a project that the General Services----
    Mr. Perry. Sorry.
    Mr. Gelber [continuing]. Administration is managing. We 
have worked with the District Department of Transportation to 
construct that road, that interchange. The District has 
reported to us that they plan to award that contract within the 
next 60 to 45--excuse me, 45----
    Mr. Perry. That was funded in 2015, right? When was that 
supposed to be complete?
    Mr. Gelber. The intent of that was to be completed in 2017. 
The reason it was not was in our work with the District, it 
took longer than we had expected and planned.
    The benefit of that road is tied to the various 
infrastructure that I have referenced and while the project is 
delayed, the reality is that that road is not necessary until 
these other components are relocated to the campus.
    Mr. Perry. All right, but you kind of get my point here, 
right?
    Mr. Gelber. Understood, sir.
    Mr. Perry. You get my point. I mean, fully funded but still 
not done, yet you are saying that the reason that the other 
issues aren't completed is because they are not fully funded. 
Yet when you are fully funded, or when they are fully funded, 
it doesn't seem to make a difference.
    Let us talk about some options here. St. Elizabeths is a 
National historic landmark. I have been there, and the place is 
magnificent. The site is magnificent. The buildings are 
magnificent and majestic.
    However, I shudder to say this because I love all that old 
stuff. I mean that. What is the cost of tearing that stuff down 
and just building the building? Is that one of the options, as 
Mr. Currie has talked about options? Is that a viable options? 
Are there--options.
    Are there unknown or--well, if they are unknown, I can't 
ask you that. But are there currently unseen but maybe known or 
suspected toxic dumping sites on the site that are going to 
have to be remediated? What the other options?
    I mean, like I said, I shudder to think about it, but I 
feel like all we are doing with respect to the American 
taxpayers' money is throwing this money down a rathole.
    Mr. Gelber. So there is physical space on the campus to 
construct new buildings. There are also, as you referenced, 
historic structures on the campus.
    Mr. Perry. Can they be torn down or must they be 
maintained?
    Mr. Gelber. They are not required to be maintained. Our 
approach has been to save what we can and complete what we 
refer to as adaptive reuse, which is to take this historic 
structure and use it for modern purposes.
    When that is possible, we work to do that, given the 
requirements that we have with the National Capital Planning 
Commission, the National Environmental Policy Act and the 
Historic Preservation Act. So we have to comply with those 
statutes when dealing with an historic property, to do all we 
can to either preserve or document the historic nature of that 
property.
    Regarding toxic issues or any types of hazardous waste, we 
are not aware of, to this date, of any types of hazardous 
chemicals or wastes on the site. That has not been the 
challenge to date. The challenge to date has been modifying 
historic structures to accommodate modern needs.
    Mr. Perry. Sure and just like the gentleman from Louisiana 
said, and he works as a carpenter, restoring old stuff is 
tough, long, hard, arduous work--you know, those were built 200 
years ago now. There are not people that do that kind of stuff 
the way it was done then. So we get that.
    But the question I have is: Is that, has it ever been in 
the list of options? There is a footprint there where the 
buildings currently stand. You either fix them and move into 
them, or you destroy them and build a new thing, a new building 
on that site or somewhere close by. But you can't just let it 
sit there languishing and falling down and being a safety 
hazard, et cetera.
    Is that one of the options that was ever considered? Is it 
considered now? Is it part of the consideration as we move 
forward to tear a portion of those buildings down and use that 
space to build new stuff?
    I mean, you do have underground infrastructure, too, 
whether it is water, sewer, electricity. It is already located 
there, so I mean, there is at least a savings there. But you 
have got this big edifice you have got to deal with.
    Mr. Gelber. So as we develop the plan that we plan in 
concert with the Department of Homeland Security, we are 
looking at the full spectrum of opportunities regarding those 
properties and the potential to demolish the property is an 
option. But it is also in the same spectrum, if you will, to 
reuse the property.
    So we are looking at all those things based on what we have 
learned at the Center Building and our experience with working 
at the Center Building. What is the viability of continuing to 
use the historic structures at the site?
    But in order for us to make a determination on that matter, 
GSA, the Department of Homeland Security, we have to work with 
a series of entities across the Washington, DC area, through 
the National Capital Planning Commission process, to ensure 
that whatever decision we make is in concert, if you will, with 
those other entities' objectives.
    Mr. Perry. I thank you for your answers. I went way over 
time.
    I now recognize the Ranking Member.
    Mr. Correa. Thank you, Mr. Chairman. I do have some 
questions. But before I get to my questions, I just wanted to 
just point out a point of procedure decorum, Mr. Chairman. That 
is our learned colleague from Virginia called Mr. Thompson by 
name.
    I hope next time we do those kinds of things, you wait 
until that Member is present so they can at least respond to 
the statements that are made using their name. I just think it 
is disrespectful just, you know, calling out another person 
when not around to defend themselves.
    With that being said, I wanted to get back to the gentlemen 
here. You know, a lot has been talked about here. I come back 
to the question I start out with. Is this plan still valid? Is 
this plan still important toward the goal of enhancing American 
security? Is this plan of consolidating these agencies a more 
effective way of protecting our citizens?
    If it is, I mean, we talk about a new plan, a new, you 
know, set of goals. I would say it is more revising the 
existing plan. Not starting from scratch, but going back and 
revising based on the circumstances, and are we 30 percent 
complete on this? Fifty percent complete? We have sunk billions 
of dollars into this project. How many more billions is it 
going to take for us to finish?
    How much are we going to save in terms of paying rent 
leases outside to private sector versus investing in this 
project to complete this project, so to speak? Open it up.
    Mr. Chaleki. To answer your first question, sir, this is 
absolutely what DHS wants to continue to do. Consolidation is--
--
    Mr. Correa. This is what DHS wants to do because this is in 
furtherance of National security?
    Mr. Chaleki. Exactly. Consolidation is very important to 
us. It is as relevant today as when the Department first stood 
up. My goal is to get as much DHS headquarters consolidated as 
possible. St. E's right now is our best solution going forward 
from both an operational standpoint and a fiscal standpoint.
    Operationally, we are combining our operations centers. 
Joint operations is important to us. Just having folks sit next 
to one another is a critical way for us to do business for the 
National security reasons that you point out. Fiscally, if we 
are inside Federally-owned facilities that is a cost savings 
for us.
    Commercial leases widely dispersed is not helpful. It is so 
much easier for the Secretary to have her leadership walk 
across the street than have to cross town just to have a 
conversation.
    This is where the Department of Homeland Security has been 
steadfast on. We need to keep going in this direction, and we 
support any effort that we can to revise this plan to see how 
much we can get onto that campus going forward.
    I think what we have to do, sir, is we have to take a look 
at the revised master plan that GSA spoke about and take a look 
and see what are the possible scenarios going forward? The 
enhanced plan is just not a workable solution anymore. One of 
the reasons that you point out is we are going into a lot of 
those historical buildings.
    Lessons learned from the Center Building point to we need 
to revisit those. So I have requirements. I know what those 
requirements are. Question is, what kind of a safe, efficient 
building can we get to house those requirements?
    Mr. Correa. Yes, there is--Mr. Gelber?
    Mr. Gelber. Given our role is to respond to the mission 
requirements, the space requirements of the agencies you work 
with, DHS has articulated their need. Our goal is to work and 
meet that need at the St. Elizabeths campus.
    A focus that we have is to develop a plan that allows us to 
use the dollars that we might be able to get to create the 
office space that would allow the DHS components that DHS 
wishes to locate at the campus should be built to be housed 
there.
    In terms of percentages, the enhanced plan created the 
following spectrum. This is a 3-year-old plan. We had spent 
$1.5 billion to date, and our expectation at the time was that 
we would need an additional $800 million to proceed.
    That plan is now the one we need to look at and revise, 
given the passage of time and the potential change of 
requirements that DHS may have, coupled with what we have 
learned in terms of our work at this campus.
    Mr. Correa. Mr. Currie, is this still a project vital, 
necessary to our National security?
    Mr. Currie. Well, sir, you know, our job at GAO is to help 
you all evaluate how good of a job the agencies are doing in 
implementing their mission. You know, what----
    Mr. Correa. But you did make some statements questioning 
the validity of this project.
    Mr. Currie. Sir, the statements that I made were not so 
much about questioning whether St. Elizabeths is the right 
choice or not. What we have looked at is the processes that 
have been used to develop this project and to manage it. The 
concerns we have had are about how it has been managed.
    But our bigger concerns are about the future. If this 
project continues to go forward and get funding, we want to see 
it managed well and the funding to be used effectively. So 
without an updated plan, though, right now it is hard to answer 
the percentage question because we don't even know right now 
what the end state looks like.
    We know what it looked like back in 2006. But the end state 
is not clear, and that is what I am raising today. I think that 
has to be discussed and figured out.
    Mr. Correa. Mr. Chairman, I yield.
    Mr. Perry. The Chair thanks the gentleman.
    The Chair recognizes the gentleman from Kansas.
    Mr. Estes. Mr. Gelber, a couple questions for you. When you 
were just talking with Mr. Correa, you made the comment around 
we spent $1.5 billion and expected another $800 million at that 
point in time. Now, we are talking about $3.7 billion for the 
entire project. Isn't that what we are looking at? Am I not 
adding the right numbers together to compare apples to apples?
    Mr. Gelber. The first two figures you mentioned were 
obviously the ones I just said. I guess the question for me is 
where we are today that those numbers that I presented to you 
were based on a plan developed in 2015. We have not been able 
to implement that plan.
    What we are in the process of doing with the Department of 
Homeland Security is developing a new plan which would have the 
cost estimates associated with going forward. It would capture 
what we would have spent to date, but also state here is how 
much money we need in order to proceed.
    But the way those numbers tie in, that we plan to propose, 
with what we have presented to date, those numbers will be 
different for the reasons that I have stated previously.
    Mr. Estes. So we don't have the total plan laid out or 
where we go from here, but the best estimate that we have today 
is looking at to be the $3.7 billion. Is that----
    Mr. Gelber. I wouldn't tie ourselves to a 3.7 number 
because the plan that we are going to be developing will have 
its own independent cost estimate associated with that. We 
agree with GAO that there is a need for a plan, and there is a 
need to develop cost estimates associated with that plan before 
we come forward and request funding for those.
    Mr. Estes. Yes. I have not been here very long. Trying to 
wrap my arms around lots of things. I have been involved in a 
few major projects, whether it is a State capital renovation or 
an airport renovation. Understand the dynamics and understand 
thinking through those pitfalls that you get into that you have 
to adjust the plan as you go along.
    But, you know, we are kind of sitting here now trying to 
figure out how do we move forward? I mean, we have put a lot of 
time, we have put a lot of money. We are not seeing the 
results.
    I know the sense of the body has been some frustration. 
There is probably frustration in the Department, in the GAO as 
well, in terms of where we are and how do we get to where we 
need to be.
    I am trying to figure out, how do we best move forward? One 
mention that was made earlier was, you know, tear down some of 
the old buildings and start from scratch. I mean, the thought 
that has got in my head is, is this the right location?
    I mean, I understand the concept of having the whole 
Department together. There is certainly some value in that. I 
know space is at at a premium, finding a space big enough for 
the Department just from that standpoint. But I don't know. 
When you go through the plan, is the intention going to be how 
to make the current design?
    Is that the direction of the plan? Are you going to look 
at, is this the right space again? Is this, is this our right 
needs? What is the scope, I guess, of the planning process from 
here?
    Mr. Gelber. From GSA's perspective, the scope of the plan 
would be how can we best use the St. Elizabeths campus to meet 
the needs of the Department of Homeland Security, given 
everything we have learned to date and given what their mission 
requirements are for the facility?
    So our sense is the envelope, if you will, of that campus 
is the area we are working within, and our goal is to make the 
best use of that envelope given everything we have learned to 
date and given everything we have done to date at that 
facility.
    Mr. Estes. Again, I will apologize for asking this question 
but--it may have been answered already--but when is the 
expectation of that plan being completed? I mean, the draft of 
the plan, so that we can actually say this is what it takes and 
what it costs and the time frame and----
    Mr. Gelber. Working with DHS and GSA together, our 
expectation is to complete that plan this calendar year, to 
work to complete that plan this calendar year.
    Mr. Estes. So from our standpoint on this committee, is 
once that plan is prepared, I assume it flows up through the 
Department for approval. Does it then bring it back to our 
committee for discussion around what do we do? Is that the plan 
we want to proceed with and move forward?
    Or where is the authorization to move forward? I am not 
sure who is best to ask that question for from a planning that 
execution process.
    Mr. Gelber. Normally, documents of this nature, in this 
case, the Department of Homeland Security and GSA, we would in 
effect clear that, vet that document through both our 
individual agencies, as well as with other components of the 
Executive branch. Then my understanding is that--again, I am 
not here to speak for the Department of Homeland Security, but 
they would submit the plan to the committee for the committee 
to review.
    Mr. Estes. OK.
    Mr. Chairman, I yield back.
    Mr. Perry. The Chair thanks the gentleman.
    Kind of one final parting thought, question, DHS is more 
than a year-and-a-half late in submitting a Congressionally-
mandated report detailing the path forward for St. Elizabeths, 
which in a way, I think, would encompass elements or 
substantially the plan that Mr. Estes was just talking about. 
Right?
    That is what we would see. At this point, I am not even 
going to ask why, but maybe I should. Is there a reason why? I 
mean, can somebody----
    Mr. Chaleki. Yes, sir. The enhanced plan, the assumptions 
that it was based on, the time lines, the cost estimates, they 
are no longer valid.
    Mr. Perry. OK. Why couldn't we at least get that report, 
and I mean, we are a year-and-a-half late. I guess that I asked 
that in the context of I am going to submit some questions for 
the record after the fact here because I don't want to keep 
everybody here.
    Look, the last thing I want to have you guys doing is 
sitting in some office answering my questions. I would prefer 
you to be, like, getting this thing done, right? But our job is 
to watch over this stuff and make sure the taxpayers' money is 
spent correctly. So we have got to get these questions 
answered.
    So is this report, that is now a year-and-a-half late, when 
can we expect to see that? Is that what Mr. Gelber was talking 
about as well in the revised plan that is going to be done this 
calendar year? Understanding it is April and we have until 
December, you know, the end of December in this calendar year? 
So what is the story there?
    Mr. Chaleki. Yes, sir. The revised master plan, that is 
what is going to generate this report because that is going to 
be the GSA-DHS way forward in the St. E's campus.
    Mr. Perry. OK. All right, well, the Chair thanks the 
witnesses for their valuable testimony.
    No. I yield.
    Mr. Correa. Thank you, Mr. Chairman.
    I just wanted to follow up on the Chairman's comments, and 
questions, which is how long are we going to have to wait until 
the next report? If we don't know the answer to that, can we 
have you all come back and tell us what you have in terms of 
the report? What revisions you have made? What you think you 
need to do?
    I just, you know, don't want to wait until next quarterly 
earning, or next annual report from you. Can we do something 
mid-term, meaning in the next few weeks. Tell us where you are 
at, what you are thinking this is going to be and what you 
don't think it is not going to be.
    I feel like we are, you know, missing something. I don't 
like thinking that this report is a year-and-a-half late and we 
don't have anything. Am I missing something?
    Mr. Gelber. Regarding, you know, meeting with your office 
and meeting with your staff, GSA is more than able and willing 
to do that and provide you the updates and information that you 
would be requesting, yes.
    Mr. Correa. I feel like it is my fiduciary duty to know 
what is going on. So if you could help me out here a little 
bit, clarify some things for me. Finally, as part of the 
updated report, not sure why it was named St. Elizabeths, but I 
know our President when 9/11 occurred was George W. Bush.
    So I would like to ask the committee to consider naming the 
St. Elizabeths area after our President George W. Bush, because 
he was President, the man in charge when our country was 
attacked, and he responded accordingly. So I would like to have 
that considered for the record. Instead of calling it St. 
Elizabeths, call it the George W. Bush DHS Headquarters.
    I yield, Mr. Chair.
    Mr. Perry. The Chair thanks the gentleman.
    The Chair thanks the witnesses for their valuable testimony 
and the Members for their questions. Members may have some 
additional questions for the witnesses, and we will ask you to 
respond to these in writing. Pursuant to committee rule VII(D), 
the hearing record will remain open for 10 days.
    Without objection, the subcommittee stands adjourned.
    [Whereupon, at 11:24 a.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

         Questions From Chairman Scott Perry for Thomas Chaleki
    Question 1a. To date, how much has been appropriated to DHS and 
GSA, respectively, for the headquarters consolidation project at St. 
Elizabeths?
    Answer.
  <bullet> DHS has received $745 million.
    Total: $2.357 billion (As of 4.12.18).
    DHS defers to GSA to respond to questions regarding GSA 
appropriations requests.
    Question 1b. As of April 2018, what portion of the funds 
appropriated to the project have been obligated?
    Answer. As of April 2018, DHS has obligated $637,824,204.60 of the 
$745,747,729.00 appropriated. DHS will defer to GSA for GSA obligation 
figures.
    Question 2. Moving forward, what are some of the biggest internal 
management challenges facing DHS and GSA regarding the consolidated 
headquarters project at St. Elizabeths?
    Answer. One of the biggest challenges facing DHS is that the delay 
in completion of the Headquarters Consolidation program adversely 
impacts the Department's strategic imperative to consolidate and reduce 
the number of locations of our core headquarters and component offices 
to enhance mission effectiveness and unity of effort.
    The funding time line is critical to sequence planning, design, 
construction, and outfitting to synchronize occupancy with lease 
expirations. This is essential to optimize cost savings and minimize 
additional costs for short-term lease extensions and building fit out 
in the interim.
    Short-term lease extensions are not cost-effective; however, they 
became a necessity with repeated gaps in planned funding. The 
Department and GSA have executed short-term lease extensions (at 
premium rates) where required due to these gaps. GSA and DHS are 
exploring long-term lease replacement procurements with the options to 
backfill with other Federal agencies as we are hopeful that Congress 
will fully appropriate future appropriations requests in support of St 
Elizabeths. This will allow DHS to address the potential higher costs 
associated with short-term extensions.
    Equally important to the real property challenges is the adverse 
impacts the uncertainty has on the DHS workforce. Our inability to 
accurately tell them where and/or when they will be moving has a clear 
negative impact on employee morale, recruitment, and retention. 
Commuting time and distance are also significant factors in employee 
work-life considerations. While there are no direct Federal Viewpoint 
Survey (FEVs) questions that address commuting time and distance, 
scores on, ``what is going on in the agency, involvement in decisions 
and overall satisfaction'' are correlated to these low satisfaction 
areas.
    Question 3a. The President's fiscal year 2019 budget requests about 
$400 million for continued consolidation and new development funds for 
St. Elizabeths. In 2014, GAO recommended making funding for the St. 
Elizabeths project contingent on DHS and GSA developing a revised 
headquarters consolidation plan that conforms with leading practices.
    Why should Congress approve the fiscal year 2019 budget request for 
St. Elizabeths before DHS and GSA have finalized an updated plan for 
the project moving forward?
    Answer. Congress should continue to support the funding requested 
by both GSA and DHS, and new construction of the FEMA headquarters, as 
it will enhance mission effectiveness, operational efficiency, and 
unity of effort between FEMA and Department Headquarters. It will 
reduce long-term costs. The revised enhanced plan prepared by GSA and 
DHS will include the new FEMA Headquarters building in fiscal year 
2019.
    The tenant portion (DHS) of the fiscal year 2019 request is $171.5 
million for tenant costs of the FEMA Headquarters to be constructed on 
the plateau. Additionally, construction of a new, Federally-owned FEMA 
Headquarters eliminates the need to re-compete commercial leases every 
15 years and reduces the long-term cost of housing the FEMA 
Headquarters. The FEMA building at St. Elizabeths is part of the 
current Master Plan.
    Question 3b. One challenge for DHS and GSA planning has been a 
failure to properly consider the impact of funding shortfalls on the 
project's schedule estimates. How will updated plans for St. Elizabeths 
take into consideration the possibility of funding shortfalls in fiscal 
year 2019 and beyond?
    Answer. DHS will continue to plan for the best options for the 
Department and adjust plans as needed to account for any funding 
shortfalls in fiscal year 2019 and beyond. The intent is any necessary 
replacement leases executed by GSA will be long-term replacement 
leases, avoiding the need for costly short-term extensions. As DHS 
vacates the space to relocate to the St Elizabeths campus, DHS will 
return this unneeded space to GSA.
    Question 4. What do GSA and DHS plan to do with owned space already 
occupied by DHS, such as the current headquarters facility on Nebraska 
Avenue that will be vacated as a result of the headquarters 
consolidation project?
    Answer. As functions relocate from the Nebraska Avenue Complex, DHS 
plans to return unneeded space to GSA. DHS defers to GSA for this plan.
    Question 5a. During the April 2018 hearing before the subcommittee, 
GSA testified that the I-295 Interchange and Access Road project falls 
under its management. However, in fiscal year 2013 DHS requested $89 
million for funding for construction on the project.
    Why did DHS request funding for this project in fiscal year 2013, 
when GSA is the agency responsible for the management and therefore 
funding and construction of the project?
    Answer. In rare instances, on the largest of projects such as St 
Elizabeths, tenant agencies have requested funding in support of 
construction. Historically, GSA and the Federal Buildings Fund request 
funding for site, design, construction, and management and inspection.
    Given the urgent need for this critical infrastructure project and 
the lack of appropriations provided for GSA in fiscal year 2011 and 
fiscal year 2012, DHS took the initiative to include it in our budget 
request in the hope it would receive greater support from the Congress 
than it did in the GSA request the prior 2 years. Unfortunately, DHS 
was not sufficiently funded in fiscal year 2013 to execute this 
project.
    Question 2b. How are budget requests for funding for the St. 
Elizabeths project divided between DHS and GSA?
    Answer. GSA, as the owner and developer of the campus, is 
responsible for the overall campus infrastructure (utilities, roads, 
parking structures, capitalized physical security improvements, etc.), 
and the core and shell construction of each building.
    DHS is responsible for tenant space design, the interior build-out 
of tenant spaces, information technology and electronic physical 
infrastructure and equipment within the building, and the overall 
campus IT enterprise architecture (DHS network), outfitting (furniture, 
fixtures, and equipment), commissioning, decommissioning (removal of 
DHS-specific items from the prior location) and move planning/execution 
costs, plus associated GSA fees.
    Question 6a. GAO's 2014 report found that the St. Elizabeths 
project has moved on and off DHS's major acquisition list.
    Is St. Elizabeths currently deemed a ``major acquisition'' by DHS 
and therefore subject to greater Departmental oversight? If not, why?
    Answer. From end to end, this is a GSA facility and will be for its 
entire life cycle. Even once occupied by DHS components, GSA will be in 
charge of the facility, its major maintenance, any new capital 
developments, and its eventual disposition. As a result, this is not a 
DHS acquisition.
    The Department agreed with the Government Accountability Office 
(GAO) recommendation that the Headquarters Consolidation project should 
be considered a major acquisition for the DHS funding portion and would 
come under the purview of the DHS Acquisition Review Board (ARB). 
However, it would not necessarily follow the fully-defined DHS 
acquisition process, given the project is managed wholly by GSA in 
accordance with GSA acquisition polices and the stage of the project in 
the acquisition cycle (i.e., in the process of renovation of the Center 
Building).
    The Business Case Analysis submitted to GAO provides the 
foundational documentation for the consolidation and related 
acquisition efforts. The Department conducted a program review on the 
DHS-funded portion of the project on November 15, 2016, utilizing the 
draft updated cost/schedule/risk data developed by GSA in response to 
GAO recommendations. The Department will continue to conduct reviews as 
required.
    Question 6b. If St. Elizabeths is currently designated as a major 
acquisition, has the Department aligned the project with DHS's 
acquisition policy guidance, as recommended by GAO?
    Answer. Given the fact that the St. Elizabeths Development is 
managed by GSA in accordance with GSA acquisition guidance, the DHS 
funded portion of the St. Elizabeths development does not follow all 
steps in the DHS acquisition process. DHS has conducted an ARB on the 
DHS funding and provides daily coordination with GSA on the use of DHS 
funds. The project does have full and regular visibility by DHS 
leadership.
    Further, the Chief Readiness Support Officer is actively working 
with the Office of Program Accountability and Risk Management to align 
the program documentation developed under this GSA-managed acquisition 
to meet the intent of the DHS Acquisition policy guidance.
    Question 7a. Under the Enhanced Plan, DHS proposed to move the 
Science and Technology Directorate, the Domestic Nuclear Detection 
Office and the Office of Health Affairs into the Munro Building at St. 
Elizabeths, which currently houses Coast Guard's headquarters.
    What concerns has the U.S. Coast Guard voiced on this move, and how 
is DHS mitigating such issues in a timely manner?
    Answer. The Coast Guard is a critical operational component. The 
Coast Guard has raised concerns that placing additional components 
could adversely impact operations and compromise growth in programs for 
cybersecurity and Ice Breaker acquisitions.
    The Department is reviewing the Coast Guard's concerns 
methodically, testing out different design approaches, and evaluating 
the tradeoffs required to meet the competing priorities.
    DHS Leadership is currently evaluating options for the Munro 
Optimization, with the U.S. Coast Guard's concerns in consideration. 
The Department expects to have a final decision this summer on the path 
forward for this project.
    Question 7b. Has DHS had to extend the current leases for the 
Science and Technology Directorate or the Domestic Nuclear Detection 
Office and the Office of Health Affairs (now combined as the Countering 
Weapons of Mass Destruction Office) due to delays in starting the Munro 
Building Reconfiguration?
    Answer. The CWMD Office and S&T have 7 leases between 3 locations, 
of which 3 leases have expired and are in a holdover status, with 4 
more leases approaching expiration in 2018, and one lease set to expire 
in 2019. GSA continues to negotiate lease extensions for the expired 
leases and leases approaching expiration.
    Question 8. Which DHS offices and components were originally slated 
to move to St. Elizabeths and what entities are slated to move to the 
Campus currently?
    Answer. The Original Master Plan (2009) envisioned the following 
functions would relocate to the St. Elizabeths campus:
  <bullet> USCG (full)
  <bullet> DHS Headquarters
    <bullet> Office of the Secretary (full)
    <bullet> Office of the Deputy Secretary (full)
    <bullet> Office of the Executive Secretary (full)
    <bullet> Office of the Military Advisor (full)
    <bullet> Management Directorate (partial staff)
    <bullet> Office of Operations Coordination (full)
    <bullet> Office of Policy (full)
    <bullet> Office of Intergovernmental Affairs (now Office of 
            Partnership and Engagement--full)
    <bullet> Office of Public Affairs (full)
    <bullet> Office of Legislative Affairs (full)
    <bullet> Office of Civil Rights and Civil Liberties (full)
    <bullet> Office of Privacy (full)
    <bullet> Office of Citizenship & Immigration Services Ombudsman 
            (full)
    <bullet> Counter Narcotics Enforcement (full)
    <bullet> Domestic Nuclear Detection Office (now CWMD--full)
    <bullet> Office of Health Affairs (now CWMD--full)
    <bullet> Science & Technology Directorate (leadership only)
    <bullet> Office of Intelligence & Analysis (leadership only)
  <bullet> FEMA (full)
  <bullet> ICE (partial staff)
  <bullet> CBP (partial staff)
    <bullet> USCIS (leadership only)
    <bullet> USSS (leadership only)
    <bullet> TSA (partial staff)
    <bullet> OIG (leadership only)
    The Enhanced Consolidation Plan (2016) revised planned occupancies 
as follows:
  <bullet> USCG (full)
  <bullet> DHS Headquarters
    <bullet> Office of the Secretary (full)
    <bullet> Office of the Deputy Secretary (full)
    <bullet> Office of the Executive Secretary (full)
    <bullet> Office of the Military Advisor (full)
    <bullet> Management Directorate (full)
    <bullet> Office of Operations Coordination (full)
    <bullet> Office of Policy (full)
    <bullet> Office of Partnership and Engagement (full)
    <bullet> Office of Public Affairs (full)
    <bullet> Office of Legislative Affairs (full)
    <bullet> Office of Civil Rights and Civil Liberties (full)
    <bullet> Office of Privacy (full)
    <bullet> Office of Citizenship & Immigration Services Ombudsman 
            (full)
    <bullet> Science & Technology Directorate (full)
    <bullet> Domestic Nuclear Detection Office (full)
    <bullet> Office of Health Affairs (full)
  <bullet> FEMA (full)
  <bullet> ICE (full)
  <bullet> CBP (partial staff)
  <bullet> CIS (USCIS Operations Center only)
  <bullet> USSS (USSS Decision Support Cell only)
  <bullet> TSA (Transportation Security Operations Center only)
    Due to lack of full funding for the project thus far, the Enhanced 
Plan is no longer viable as envisioned. DHS is currently working with 
GSA to revise the Master Plan, and will brief the Congress on the 
future St Elizabeths plans, as appropriate.
      Questions From Ranking Member Luis Correa for Thomas Chaleki
    Question 1. In response to the DHS Headquarters Consolidation 
Accountability Act of 2015, this committee was owed information in 
August 2016 to better understand DHS headquarters enhanced 
consolidation plan, but we're still waiting. Why is this information 
long overdue and when can we expect to receive it?
    Answer. DHS, in concert with GSA, prepared a comprehensive response 
to the Act with the detailed cost estimates/schedules in accordance 
with GAO recommendations.
    The draft report was prepared with the anticipation that full 
funding would be supported in the fiscal year 2017 and 2018 budget 
request and appropriations process. With the lack of fiscal year 2017 
appropriations to build the new FEMA Headquarters and the corresponding 
deferral of the fiscal year 2018 planned execution, the draft report is 
outdated and inaccurate.
    Both the DHS and GSA concluded the report was no longer an accurate 
reflection of the program estimate or schedule as written and this was 
communicated to the committee in lieu of the Report. The Enhanced Plan 
will be revised with the recognition that certain leases must now be 
re-competed as a result of the 2-year delay and that other adjustments 
are necessary given the challenges encountered with retrofitting 
historic building renovations on the campus.
    GSA, in partnership with DHS, is currently developing a Master Plan 
revision.
    Question 2a. The DHS headquarters consolidation was justified on 
the basis that it was going to centralize leadership, improve 
operations, save money, and boost morale. However, the project is 
behind schedule, increasing in cost, and not bringing DHS components 
together.
    When will we start to see the benefits?
    Answer. Operationally, the benefits of headquarters consolidation 
began to accrue when the U.S. Coast Guard moved from Transpoint and the 
Jemal Building into the Munro Building in 2013. Collocating their 
entire headquarters staff under one roof, as opposed to two separate 
facilities has enhanced operational efficiency, esprit de corps, and 
unit integrity.
    With the Department's Headquarters relocation into the Center 
Building and new National Operations Center coming on line in April 
2019, along with the West Addition in 2020, the Department will begin 
operating in a more consolidated footprint, which will enhance mission 
effectiveness, operational efficiency, and unity of effort.
    With continued Congressional support for the project, including the 
fiscal year 2019 budget request to construct a new FEMA headquarters 
and future fiscal years, DHS will continue to leverage the investment 
in St. Elizabeths to its optimum potential.
    Government-owned, permanent facilities provide long-term costs 
savings over the best available commercial leasing plan. Had the 
Enhanced Plan been fully funded and executed as originally envisioned, 
it would have provided DHS cost avoidance of $1.2 billion present value 
over 30 years over the best available commercial lease plan.
    The financial benefits will accrue as sufficient funding is 
provided to complete additional development segments to allow a 
reduction in the current 46 scattered locations that house DHS and 
component HQ offices across the National Capital Region.
    Question 2b. To what extent will these benefits be fully realized 
given components, such as TSA, are building their own headquarters?
    Answer. Through the original Master Planning process completed from 
2005 through 2009, GSA determined there were no available sites within 
the National Capital Region (NCR) to allow a complete consolidation of 
DHS and component headquarters. Accordingly, a ``perfect'' solution was 
and is not a viable option. However, that does not mean that enduring 
improvements in mission effectiveness and portfolio management cannot 
be achieved with significant reductions in our scattered 46 locations 
throughout the NCR. From its inception, the plan sought to reduce the 
46 current locations down to about 8 to enhance mission effectiveness, 
operational efficiency, portfolio management, and unity of effort. TSA 
headquarters consolidation into a commercial lease was and is a part of 
the overall plan to reduce down to roughly 8 locations.
    Question 3a. DHS previously estimated that the relocation of the 
Coast Guard to St. Elizabeths would save $16 million dollars in shuttle 
expenses over 5 years.
    Has DHS identified any cost savings associated with the Coast 
Guard's move that occurred 5 years ago?
    Answer. Yes. The utilization of WMATA buses for shuttle services 
between Anacostia Metro and both the GSA Regional Office Building at 
301 7th Street S.W. and St. Elizabeths has resulted in an actual 
savings to Coast Guard over the past 5 years, compared to the 
commercial motor coaches used prior to relocation. Actual costs for the 
WMATA service from August 2013 through June 2018 was approximately 
$11,900,000. The estimate for commercial motor coach shuttles providing 
the same service over this period was approximately $25,000,000. As a 
result, DHS/USCG realized a cost avoidance of approximately $13,100,000 
in just supporting the Coast Guard population.
    Question 3b. Has DHS estimated any other similar cost savings with 
future moves to St. Elizabeths?
    Answer. The fully implemented Enhanced Plan would have resulted in 
a 30-year present value savings to the Department of $1.2 billion 
compared to the best available commercial lease options.
    Additional savings in shared services/overhead expenses could also 
be realized by fully executing the Headquarters Consolidation Program 
and reducing our NCR locations from 46 to about 8. These include:
  <bullet> Infrastructure.--GSA installed 70 percent of the utility 
        distribution systems during the first phase to support future 
        campus occupancies and mitigate impacts on operations. These 
        will go underutilized without additional construction.
  <bullet> Security.--Without consolidation, guard services and 
        physical security building enhancements will have to be 
        duplicated in commercial leases with lost opportunities to 
        leverage the St. Elizabeths Interagency Security Committee 
        (ISC) Level V secure campus costs already being paid.
  <bullet> Mail Delivery.--DHS currently spends $2.1 million delivering 
        mail (transportation only) to approximately 50 locations. With 
        consolidation, DHS projects that the costs could be reduced by 
        $500,000 annually or 25 percent.
    Question 4a. Both DHS and GSA are requesting money in fiscal year 
2019 to design and construct FEMA's new headquarters at St. Elizabeths.
    What planning have GSA and DHS completed thus far for this segment 
of the project?
    Answer. GSA is developing initial core and shell massing 
alternatives for a new FEMA headquarters to be constructed on the 
plateau of the West Campus. The DHS St. Elizabeths team is currently 
working with FEMA to review their Program of Requirements in 
preparation for detailed programming meetings to be held with each FEMA 
office and the design architect over the next 2 months.
    Question 4b. When will DHS and GSA be able to begin construction on 
the FEMA headquarters assuming funding is provided?
    Answer. DHS defers this question to GSA. DHS does not manage the 
acquisition process or construction scheduling. DHS provides funding to 
GSA to meet our tenant obligations. GSA is responsible for the 
acquisition and construction time lines.
    Question 5. DHS's fiscal year 2019 budget request includes $171 
million for construction at St. Elizabeths, and the GSA budget request 
includes even more. If you don't have cost and schedule estimates to 
submit to Congress, what are these requests based on?
    Answer. Both GSA and DHS have estimates for FEMA construction and 
outfitting the fiscal year 2019 request. This project was part of the 
Enhanced Plan execution included in the fiscal year 2017 budget request 
that was not funded. The cost and schedule estimates have been updated 
to address the 2-year delay in execution from fiscal year 2017 to 
fiscal year 2019.
    GSA and DHS are working together to develop a Master Plan revision. 
The revised plan will include updated cost and schedule estimates.
  Questions From Ranking Member Bennie G. Thompson for Thomas Chaleki
    Question 1a. In 2013, former Chief Readiness Support Officer Jeff 
Orner testified before the House Committee on Transportation and 
Infrastructure that DHS's rental expense was approaching $1.6 billion 
in rent and $310 million in maintenance and upkeep each year.
    Please provide the committee with an update on DHS's current total 
rental expenses, including a breakdown of the costs by each location, 
per square foot.
    Answer. The total rental expenses for DHS facilities serviced by 
GSA as of April 2018 projected out annually is $1,623,404,264.04. See 
cost breakdowns in attachment ``DHS Facilities Serviced by GSA--April 
2018''.
    Question 1b. Additionally, how much money can still be saved on 
leases if Congress adequately funds the project to allow for 
consolidation of several components and offices in owned space at St. 
Elizabeths?
    Answer. Leveraging the Federal investment at St. Elizabeths 
provides long-term savings over leasing commercial space, which has to 
be re-competed every 15 years with tenant costs incurred.
    Government-owned facilities provide long-term costs savings over 
the best available commercial leasing plan. Had the Enhanced Plan been 
fully funded and executed as envisioned, it would have provided DHS 
cost avoidance of $1.2 billion over 30 years.
    With expiring commercial leases, GSA and DHS are faced with annual 
decisions to pursue short-term lease extensions (where possible) at 
premium costs with no guarantee that delayed appropriations will be 
forthcoming, or re-compete the commercial leases with tenant costs 
incurred and not realize the benefits of consolidation.
    Given the lack of full funding for the project in fiscal year 2017 
and fiscal year 2018, and the subsequent misalignment of leases, GSA 
and DHS are working to update the Master Plan. At that point, DHS will 
be able to update the savings analysis based on the revised Master 
Plan.
    However, it is clear that consolidating DHS components into 
Government-owned property at St. Elizabeths is the more cost-effective 
choice. Additional savings will be achieved in overhead expenses from 
reductions in shuttles/sedans, mail, energy efficiency, etc. at full 
implementation of consolidation.
    Question 2a. Have you revisited the projected need for physical 
space at the St. Elizabeths Campus and how many personnel will be 
housed there?
    Answer. The original Master Plan provided total development of 4.5 
million gross square feet of office space and 1.5 million square feet 
of parking on the West and East Campus, accommodating a total of 14,000 
employee seats.
    The Enhanced Plan proposed to reduce the construction, eliminating 
the East Campus development and proposed to accommodate 17,000 
employees in 12,800 seats in 3.7 million gross square feet of office 
space on the West Campus.
    Given the lack of full funding in fiscal year 2017 and 2018, the 
misalignment of expiring commercial leases, and the lessons learned 
from the Center Building renovation, GSA and DHS are in the process of 
developing a Master Plan revision. The revised plan will identify DHS 
personnel/programmatic space requirements and GSA overall construction 
targets/approaches for the remaining campus development.
    Question 2b. Conversely, how many personnel will remain in leased 
space?
    Answer. Through the original Master Planning process completed from 
2005 through 2009, GSA determined there were no available sites within 
the National Capital Region (NCR) to allow a complete consolidation of 
DHS and component Headquarters. From its inception, the plan sought to 
reduce the 46 current location down to about 8, with the goal of 
enhancing mission effectiveness, operational efficiency, portfolio 
management, and unity of effort.
    Had the Enhanced Plan been fully funded/executed, the DHS NCR 
portfolio would have reduced from 46 to roughly 8 locations with St. 
Elizabeths as a focal point, and with Federal space retained in the 
Ronald Reagan Building, the USSS Headquarters building, and the 
Nebraska Avenue Complex. Commercial lease occupancies were planned for 
TSA, USCIS, and OIG. We are still moving forward with these commercial 
leases, however given the misalignment of lease expirations and the 
challenges with retrofitting historic buildings, additional leases must 
be considered.
    GSA and DHS are working together to revise the plan and expect to 
have this completed by the end of the calendar year. This revised plan 
will identify the updated mix of owned and leased occupancies.
    Question 3a. One of the initial goals of the DHS Headquarters 
Consolidation Project was to integrate Department-wide operations and 
improve coordination of response efforts to various threats and 
homeland security events.
    Still awaiting completion of the project, how effectively can FEMA 
coordinate with other DHS entities in the immediate response to 
incidents with the current facilities available for DHS headquarters?
    Answer. The dedicated FEMA workforce continues to perform at high 
levels despite being housed in two different commercial leased 
buildings and separated from other DHS entities. FEMA is in commercial 
leased space with leases that will expire in the next few years. 
Without the Federal facility, FEMA may have to move when their lease 
expires. The Department's perspective is that collocating FEMA with the 
DHS Headquarters at St. Elizabeths enhances communications, 
coordination, resource allocation, and overall mission effectiveness as 
compared to placing them in a new commercial lease somewhere in the 
National Capital Region.
    While the business case for Federal construction over commercial 
leasing is compelling, the operational coordination and unity of effort 
enhancement on mission execution represents the foundational aspect of 
headquarters consolidation.
    Question 3b. How could a consolidated headquarters have contributed 
to an improved response to the 2017 disasters?
    Answer. A consolidated headquarters with collocated components will 
enhance communications, coordination, resource allocation, and overall 
mission effectiveness as compared to components scattered in commercial 
leases across the National Capital Region. In times of crisis and/or 
high operational tempo, proximity matters. Face-to-face communications, 
operational coordination, and courses of action development, enhances 
the quality and timeliness of recommendations provided to leadership 
for action. Working collaboratively together produces better results 
than individual components working on their own.
    Question 4a. Construction of the new DHS headquarters was initially 
to be completed 2 years ago in 2016 at a cost of $3.26 billion. Nine 
years after construction only the Coast Guard has moved to its new 
location on the St. Elizabeths campus and significant work remains 
before other DHS component agencies are able to relocate. The last 
estimate I saw was completion in 2026 at the cost of $4.5 billion.
    What efforts are you undertaking to reassess cost and schedule 
estimates for the St. Elizabeths project?
    Answer. DHS and GSA are working together on the revision to the 
Master Plan to address misaligned leases due to the lack of full 
funding for the project in fiscal year 2017 and fiscal year 2018, and 
challenges with retrofitting historic buildings. We will continue to 
carefully manage our requirements to mitigate cost growth as the plan 
is revised.
    Question 4b. How do those efforts conform with leading practices as 
identified by GAO?
    Answer. As the tenant, DHS does not oversee the development side of 
the St Elizabeths campus project. The Department defers to GSA.
    Question 5. How much have DHS and GSA been appropriated to date for 
the St. Elizabeths project and how much more is needed to complete 
consolidation?
    Answer.
  <bullet> DHS has received $745 million.
    Total: $2.357 billion (As of 4.12.18).
    DHS defers to GSA to respond to questions regarding GSA 
appropriations requests.
    GSA and DHS are working together to develop a Master Plan revision. 
The Master Plan revision is expected to include updated cost estimates 
to complete the headquarters consolidation at St. Elizabeths.
    Question 6. Who is primarily responsible for the project and 
controls the contracts that obligate (or spend) taxpayer money on St. 
Elizabeths?
    Answer. GSA is the owner and developer of the campus. In this role, 
they manage all development contracts to include planning, design, and 
construction.
    As the tenant, DHS's responsibilities include the development of 
clear requirements for housing DHS staff and budgeting and funding all 
tenant requirements for build-out and outfitting of tenant space and 
move planning/execution. DHS does not exercise acquisition authority 
over the construction or schedule development. DHS transfers most DHS 
project funding to GSA for obligation and expenditure. DHS does 
monitor, review, and approve GSA's use of DHS funding for specific 
projects segments.
    GSA is responsible for design and construction. GSA is fully 
responsible for the obligation and expenditure of GSA-appropriated 
project funds.
         Questions From Chairman Scott Perry for Michael Gelber
    Question 1a. To date, how much has been appropriated to DHS and 
GSA, respectively, for the headquarters consolidation project at St. 
Elizabeths?
    Question 1b. As of April 2018, what portion of the funds 
appropriated to the project have been obligated?
    Answer. Response was not received at the time of publication.
    Question 2. Moving forward, what are some of the biggest internal 
management challenges facing DHS and GSA regarding the consolidated 
headquarters project at St. Elizabeths?
    Answer. Response was not received at the time of publication.
    Question 3a. The President's fiscal year 2019 budget requests about 
$400 million for continued consolidation and new development funds for 
St. Elizabeths. In 2014, GAO recommended making funding for the St. 
Elizabeths project contingent on DHS and GSA developing a revised 
headquarters consolidation plan that conforms with leading practices.
    Why should Congress approve the fiscal year 2019 budget request for 
St. Elizabeths before DHS and GSA have finalized an updated plan for 
the project moving forward?
    Question 3b. One challenge for DHS and GSA planning has been a 
failure to properly consider the impact of funding shortfalls on the 
project's schedule estimates. How will updated plans for St. Elizabeths 
take into consideration the possibility of funding shortfalls in fiscal 
year 2019 and beyond?
    Answer. Response was not received at the time of publication.
    Question 4. What do GSA and DHS plan to do with owned space already 
occupied by DHS, such as the current headquarters facility on Nebraska 
Avenue, that will be vacated as a result of the headquarters 
consolidation project?
    Answer. Response was not received at the time of publication.
    Question 5a. During the April 2018 hearing before the subcommittee, 
GSA testified that the I-295 Interchange and Access Road project falls 
under its management. However, in fiscal year 2013 DHS requested $89 
million for funding for construction on the project.
    Why did DHS request funding for this project in fiscal year 2013, 
when GSA is the agency responsible for the management and therefore 
funding and construction of the project?
    Question 5b. How are budget requests for funding for the St. 
Elizabeths project divided between DHS and GSA?
    Answer. Response was not received at the time of publication.
      Questions From Ranking Member Luis Correa for Michael Gelber
    Question 1. GSA guidance requires the development of a life-cycle 
cost estimate for construction projects that includes the cost to build 
and operate the construction project. However, GAO found that the cost 
estimate for St. Elizabeths only included the cost to build, not any 
operations or maintenance costs.
    Have you developed an improved life-cycle cost estimate to include 
operations and maintenance costs?
    Answer. Response was not received at the time of publication.
    Question 2. In December 2017, the Coast Guard expressed concerns 
with the plan to move three other DHS offices--Office of Health 
Affairs, Science & Technology Directorate, and Domestic Nuclear 
Detection Office (DNDO)--into Coast Guard's headquarters at St. 
Elizabeths, which is already over capacity.
    What is the status of reaching agreement with the Coast Guard on 
the reconfiguration of its headquarters to accommodate the additional 
1,500 personnel?
    Answer. Response was not received at the time of publication.
    Question 3a. Both DHS and GSA are requesting money in fiscal year 
2019 to design and construct FEMA's new headquarters at St. Elizabeths.
    What planning have GSA and DHS completed thus far for this segment 
of the project?
    Question 3b. When will DHS and GSA be able to begin construction on 
the FEMA Headquarters assuming funding is provided?
    Answer. Response was not received at the time of publication.
    Question 4. DHS's fiscal year 2019 budget request includes $171 
million for construction at St. Elizabeths, and the GSA budget request 
includes even more.
    If you don't have cost and schedule estimates to submit to 
Congress, what are these requests based on?
    Answer. Response was not received at the time of publication.
  Questions From Ranking Member Bennie G. Thompson for Michael Gelber
    Question 1a. DHS has established an acquisition oversight process 
that includes an Acquisition Review Board and the under secretary for 
management or the deputy secretary as the acquisition decision 
authority. I understand that GSA, as the developer, is responsible for 
the acquisition and contracting actions on the St. Elizabeths project.
    Who is the acquisition decision authority at GSA for this project 
and similar construction projects?
    Question 1b. Additionally, please explain what processes GSA uses 
for oversight of such large construction projects like St. Elizabeths.
    Answer. Response was not received at the time of publication.
    Question 2. Please provide the following information on all 
contracts to date that GSA has awarded for the St. Elizabeths campus:
  <bullet> awardee, dollar amount, and description of work to be 
        performed for each prime and sub-contract, including contracts 
        to small and disadvantaged businesses;
  <bullet> the percentage of contract dollars awarded to small and 
        disadvantaged businesses; and
  <bullet> a description of what future opportunities exist for small 
        and disadvantaged businesses to work on this project.
    Answer. Response was not received at the time of publication.
    Question 3a. Construction of the new DHS headquarters was initially 
to be completed 2 years ago in 2016 at a cost of $3.26 billion. Nine 
years after construction only the Coast Guard has moved to its new 
location on the St. Elizabeths campus and significant work remains 
before other DHS component agencies are able to relocate. The last 
estimate I saw was completion in 2026 at the cost of $4.5 billion.
    What efforts are you undertaking to reassess cost and schedule 
estimates for the St. Elizabeths project?
    Question 3b. How do those efforts conform with leading practices as 
identified by GAO?
    Answer. Response was not received at the time of publication.
    Question 4. How much have DHS and GSA been appropriated to date for 
the St. Elizabeths project and how much more is needed to complete 
consolidation?
    Answer. Response was not received at the time of publication.
    Question 5. Who is primarily responsible for the project and 
controls the contracts that obligate (or spend) taxpayer money on St. 
Elizabeths?
    Answer. Response was not received at the time of publication.
  Questions From Ranking Member Luis Correa for Christopher P. Currie
    Question 1a. In its September 2014 report, GAO made five 
recommendations to DHS and GSA to improve the headquarters 
consolidation project at St. Elizabeths. Over 3 years later those 
recommendations remain open as they have not been implemented.
    Have DHS and GSA made any progress implementing the 
recommendations?
    Answer. DHS and GSA have not made progress implementing four of our 
recommendations dealing with revised plans that reflect leading 
practices for capital decision making and reliable cost and schedule 
estimates. In January 2018, DHS and GSA reported that they had prepared 
alternatives analyses, updated plans, and cost and schedule estimates 
for DHS headquarters consolidation, but needed to reexamine these 
efforts relative to new administration priorities and budget 
circumstances.
    DHS has made some progress implementing our recommendation that DHS 
designate the headquarters consolidation program a major acquisition, 
consistent with DHS acquisition policy, and apply DHS acquisition 
policy requirements. On September 16, 2014, DHS issued an Acquisition 
Decision Memorandum designating the DHS-funded portions of the 
headquarters consolidation program as a Major Acquisition Program to be 
overseen by the Departmental Acquisition Review Board (ARB). DHS made 
further progress implementing this recommendation by conducting and 
documenting an ARB of the program on November 15, 2016. DHS reported in 
January 2018 that they are working to align headquarters consolidation 
program documentation to meet the spirit of DHS acquisition policy 
guidance.
    Question 1b. What further work needs to be done?
    Answer. A comprehensive report to Congress on DHS headquarters 
consolidation, along with reliable project cost and schedule estimates, 
could inform Congress's funding decisions. The Department of Homeland 
Security Headquarters Consolidation Accountability Act of 2015 (Pub. L. 
No. 114-150) was enacted on April 29, 2016. Among other things, the act 
requires DHS, in coordination with GSA, to submit information to 
Congress about DHS headquarters consolidation efforts not later than 
120 days of enactment.
    As of April 2018, DHS and GSA had not submitted the information to 
Congress required by Pub. L. No. 114-150. Required information 
includes: A comprehensive assessment of property and facilities 
utilized by DHS in the National Capital Region; an analysis that 
identifies the costs and benefits of leasing and construction 
alternatives for the remainder of the consolidation project; and 
updated cost and schedule estimates for the project that are consistent 
with our recommendations. DHS should also demonstrate a continued 
commitment in applying DHS acquisition policy requirements to the 
headquarters consolidation program.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
